No. ___________
════════════════════════════════════════

In the Supreme Court of the United States
──────────────────────────────
JEFFERSON DUNN,
COMMISSIONER, ALABAMA DEPARTMENT OF CORRECTIONS,
APPLICANT,
v.
WILLIE B. SMITH III,
RESPONDENT.
════════════════════════════════════════
APPENDIX TO EMERGENCY APPLICATION TO VACATE INJUNCTION OF EXECUTION
═══════════════════════════════════════
To the Honorable Clarence Thomas,
Associate Justice of the Supreme Court of the United States and
Circuit Justice for the Eleventh Circuit
═══════════════════════════════════════
Steve Marshall
Attorney General
Edmund G. LaCour Jr.
Solicitor General
A. Barrett Bowdre
Deputy Solicitor General
Lauren A. Simpson*
Beth Jackson Hughes
Richard Anderson
Assistant Attorneys General
* Counsel of Record

February 11, 2021

State of Alabama
Office of the Attorney General
501 Washington Avenue
Montgomery, AL 36130-0152
Tel: (334) 242-7300
Lauren.Simpson@AlabamaAG.gov

TABLE OF CONTENTS
Order of the United States Court of Appeals for the Eleventh Circuit, Smith v.
Comm’r, Ala. Dep’t of Corrs., No. 21-10348 (Feb. 10, 2021) ................................App. 1
Memorandum Opinion & Order of the United States District Court for the Middle
District of Alabama, Smith v. Dunn, No. 2:20-cv-1026-RAH (Feb. 2, 2021) .....App. 24

USCA11 Case: 21-10348

Date Filed: 02/10/2021

Page: 1 of 23

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 21-10348
Non-Argument Calendar
________________________
D.C. Docket No. 2:20-cv-01026-RAH

WILLIE B. SMITH, III,
Plaintiff - Appellant,
versus
COMMISSIONER, ALABAMA DEPARTMENT OF CORRECTIONS,
Defendant - Appellee.
________________________
Appeal from the United States District Court
for the Middle District of Alabama
________________________
Before WILSON, MARTIN, and JORDAN, Circuit Judges.
MARTIN, Circuit Judge:
Plaintiff-Appellant Willie B. Smith, III is an Alabama death-row prisoner in
the custody of the Alabama Department of Corrections (ADOC) at Holman

App. 1

USCA11 Case: 21-10348

Date Filed: 02/10/2021

Page: 2 of 23

Correctional Facility.1 Smith appeals the District Court’s denial of a preliminary
injunction. This appeal presents the question of whether a death-row prisoner is
entitled to have his religious advisor present inside the execution chamber at the
time of execution. After careful review of the record, we reverse the District
Court’s denial of injunctive relief.
I.

Factual and Procedural Background

In 1991 an Alabama jury convicted Smith of murder. The jury recommended
that Smith receive the death sentence, which the court imposed. The Alabama
Court of Criminal Appeals affirmed Smith’s conviction and sentence. See Smith v.
State, 838 So. 2d 413 (Ala. Crim. App. 2002) (per curiam). And the Supreme
Court denied Smith’s petition for certiorari. Smith v. Alabama, 537 U.S. 1090
(2002) (mem.). The Supreme Court also denied Smith’s petitions for habeas
corpus. See Smith v. Dunn, 141 S. Ct. 188 (2020) (mem.).
The Alabama Supreme Court set Smith’s execution for February 11, 2021.
On December 14, 2020, Smith commenced this suit challenging the ADOC’s
execution policies.

1

Holman is the ADOC’s primary correctional facility for housing death row inmates and is the
only correctional facility in Alabama that carries out executions.
2
App. 2

USCA11 Case: 21-10348

Date Filed: 02/10/2021

Page: 3 of 23

The ADOC does not permit a death-row inmate to have anyone in the
execution chamber with them when they are executed. This is a relatively new
policy. While the ADOC has never permitted an outside spiritual advisor in the
execution chamber, before April 2019, the ADOC required Holman’s Christian
chaplain—employed by ADOC—to be in the execution chamber during
executions. The ADOC changed this policy in 2019 after an inmate challenged it
and other inmates brought challenges to similar policies across the country. See
Dunn v. Ray, 139 S. Ct. 661 (2019) (mem.); Murphy v. Collier, 139 S. Ct. 1475
(2019) (mem.). Now the ADOC does not allow any person into the execution
chamber except for the condemned prisoner, members of the execution team, and
certain medical personnel.
Smith filed this suit in the Middle District of Alabama, seeking declaratory
and injunctive relief, asking the court to require the ADOC to allow Smith’s
religious advisor, Pastor Robert Paul Wiley Jr., in the execution chamber during
his execution. Specifically, Smith alleged that the ADOC policy violates his rights
under the Religious Land Use and Institutionalized Person Act of 2000 (RLUIPA),
42 U.S.C. § 2000cc et seq., the Alabama Religious Freedom Amendment (ARFA)
to the Alabama constitution, Ala. Const. art. I, § 3.01, and the Establishment and
Free Exercise clauses of the First Amendment to the U.S. Constitution. Smith also

3
App. 3

USCA11 Case: 21-10348

Date Filed: 02/10/2021

Page: 4 of 23

filed a motion for a preliminary injunction. The ADOC opposed Smith’s motion
and moved to dismiss Smith’s complaint.
After hearing oral arguments and considering the supplemental evidence
submitted by the parties, the District Court issued an order that granted the
ADOC’s motion to dismiss as to Smith’s Establishment Clause claim but denied its
motion as to Smith’s claims under RLUIPA, the Free Exercise Clause, and ARFA.
And, as is most important to this case, the District Court also denied Smith’s
motion for a preliminary injunction. After weighing the parties’ arguments, the
District Court determined that Smith had failed to show a substantial likelihood of
success on the merits.
Smith now appeals the District Court’s denial of his motion for a
preliminary injunction with respect to his RLUIPA and ARFA claims.
II.

Standard of Review

We review a district court’s decision to deny a preliminary injunction for
abuse of discretion. Scott v. Roberts, 612 F.3d 1279, 1289 (11th Cir. 2010). “In so
doing, we review the findings of fact of the district court for clear error and legal
conclusions de novo.” Id. “This scope of review will lead to reversal only if the
district court applies an incorrect legal standard, or applies improper procedures, or
relies on clearly erroneous factfinding, or if it reaches a conclusion that is clearly
4
App. 4

USCA11 Case: 21-10348

Date Filed: 02/10/2021

Page: 5 of 23

unreasonable or incorrect.” Schiavo ex rel. Schindler v. Schiavo, 403 F.3d 1223,
1226 (11th Cir. 2005) (per curiam); see also Siegel v. LePore, 234 F.3d 1163, 1175
(11th Cir. 2000) (en banc) (per curiam) (finding that the District Court’s order
denying injunctive relief could only be reversed on appeal “if there was a clear
abuse of discretion”).
III.

Analysis

RLUIPA prohibits the government from “impos[ing] a substantial burden on
the religious exercise of a person residing in or confined to an institution” unless
the government demonstrates that burden “(1) is in furtherance of a compelling
governmental interest; and (2) is the least restrictive means of furthering that
compelling governmental interest.” 42 U.S.C.A. § 2000cc-1(a). Therefore, to
establish a prima facie case, a plaintiff must show: (1) that he engaged in a
religious exercise; and (2) that the religious exercise was substantially burdened.
Smith v. Allen, 502 F.3d 1255, 1276 (11th Cir. 2007), abrogated on other grounds
by Sossamon v. Texas, 563 U.S. 277 (2011). Once the plaintiff demonstrates a
prima facie case, “the government must then demonstrate that the challenged
government action ‘is in furtherance of a compelling governmental interest’ and ‘is
the least restrictive means of furthering that compelling governmental interest.’”
Id. (quoting 42 U.S.C. §§ 2000cc–1(a), 2000cc–2(b)).

5
App. 5

USCA11 Case: 21-10348

Date Filed: 02/10/2021

Page: 6 of 23

A party seeking injunctive relief must establish four elements: “(1) a
substantial likelihood of success on the merits; (2) that irreparable injury will be
suffered if the relief is not granted; (3) that the threatened injury outweighs the
harm the relief would inflict on the non-movant; and (4) that entry of the relief
would serve the public interest.” Schiavo, 403 F.3d at 1225–26. “Controlling
precedent is clear that injunctive relief may not be granted unless the plaintiff
establishes the substantial likelihood of success criterion.” Id. at 1226.
For the reasons explained below, we hold the District Court abused its
discretion by finding Smith failed to demonstrate his religious exercise was
substantially burdened. Because Smith has established a prima facie case, we reach
the District Court’s alternative grounds for finding that Smith failed to show a
substantial likelihood of success on the merits of his claims. Although we agree
that the ADOC has a compelling interest in maintaining security, we believe the
District Court abused its discretion in finding the ADOC’s policy is the least
restrictive means to further that compelling interest. We will now address the
merits of his claims.2

2

Smith argues he is likely to succeed on the merits of his ARFA claim for the same reasons he
is likely to succeed on his RLUIPA claim. Because the ARFA standard is almost identical to the
RLUIPA standard—except that a plaintiff is required to show only a “burden” on his religion,
rather than the higher “substantial burden” standard under RLUIPA—we will not address the
ARFA claim separately. See Thai Meditation Assoc. of Ala., Inc. v. City of Mobile, 980 F.3d 821,
839–40 (11th Cir. 2020).
6
App. 6

USCA11 Case: 21-10348

A.

Date Filed: 02/10/2021

Page: 7 of 23

Likelihood of Success on the Merits
1. Prima Facie Case

Smith first contends that the ADOC’s policy of not allowing his religious
advisor in the execution chamber violates his rights under RLUIPA. RLUIPA
prohibits the imposition of burdens on the ability of prisoners to worship as they
please. 42 U.S.C. § 2000cc et seq. The institutionalized-persons provisions provide
“very broad protection” to prisoners’ religious liberties, prohibiting state and local
institutions from placing arbitrary or unnecessary restrictions on their practices.
Holt v. Hobbs, 574 U.S. 352, 356 (2015).
A successful RLUIPA claim must first pass a two-part test: the prisoner
must show (1) he engaged in a religious exercise; and (2) that religious exercise
was substantially burdened. Smith, 502 F.3d at 1276 (citing, inter alia, 42 U.S.C. §
2000cc-1(a)). A “religious exercise” is broadly defined under RLUIPA as “any
exercise of religion, whether or not compelled by, or central to, a system of
religious belief.” 42 U.S.C. § 2000cc-5(7)(A).
We begin our discussion of Smith’s RLUIPA claim by noting that we do not
in any way doubt Smith’s sincerely held religious beliefs. In his complaint, Smith
vows that he is a practicing Christian, that it is “integral to [his] faith that Pastor
Wiley be physically present with him at the time of his execution,” and that Pastor
7
App. 7

USCA11 Case: 21-10348

Date Filed: 02/10/2021

Page: 8 of 23

Wiley’s presence in the execution chamber would provide Smith spiritual comfort
in his final moments. Both Smith and Pastor Wiley submitted declarations to the
District Court averring that Smith is a devout Christian who has a close, spiritual
connection with Pastor Wiley. We thus agree with the District Court’s conclusion
“that Smith’s practice of Christianity and his belief that his pastor should be
physically present with him in the execution chamber constitute a ‘religious
exercise’ for purposes of a RLUIPA claim.”
Having met his initial burden of demonstrating that his observance of
Christianity—and his belief that Pastor Wiley’s presence will provide him comfort
during his execution—constitutes “religious exercise” under the statute, we now
address whether the ADOC’s policy constitutes a “substantial burden” on Smith’s
religious exercise. See 42 U.S.C. § 2000cc-1(a).
To prevail on a RLUIPA claim, a prisoner must first prove that the
challenged practice places a substantial burden on his religious exercise. See Holt,
574 U.S. at 361. Evidence sufficient to show a substantial burden falls on a
spectrum. See Thai Meditation, 980 F.3d at 830–31. At one end, Smith may show
the ADOC policy substantially burdens the exercise of his religion by showing it
“completely prevents [him] from engaging in religiously mandated activity, or
requires participation in an activity prohibited by religion.” See Midrash Sephardi,
Inc. v. Town of Surfside, 366 F.3d 1214, 1227 (11th Cir. 2004). At the other end,
8
App. 8

USCA11 Case: 21-10348

Date Filed: 02/10/2021

Page: 9 of 23

Smith may show the ADOC policy requires him to modify his behavior. Id.; Thai
Meditation, 980 F.3d at 831.
The District Court abused its discretion by questioning whether Smith’s
belief that Pastor Wiley should be present in the execution chamber was only a
“preference,” rather than a tenet or practice of his religion, and by relying on
alternative ways Smith could practice his religion.3 There are two key principles
underlying the substantial burden analysis. First, the Supreme Court has made clear
that courts should not inquire into whether a prisoner prefers one sort of religious
exercise over another. Holt, 574 U.S. at 362 (holding the District Court erred by
inquiring into whether all Muslims believe that men must grow beards); Burwell v.
Hobby Lobby Stores, Inc., 573 U.S. 682, 725 (2014) (declining to question whether
sincerely held beliefs “are mistaken or insubstantial”). This Court has reiterated the
same principle. See Cambridge Christian School, Inc. v. Fla. High School Athletic
Ass’n, Inc., 942 F.3d 1215, 1247 (11th Cir. 2019) (“The Supreme Court itself has
consistently refused to question the centrality of particular beliefs or practices to a
faith, or the validity of particular litigants’ interpretations of those creeds.”
(quotation marks omitted)); see also id. at 1248 (“In short, courts must not presume

3

The District Court relied on this Court’s decision in Allen, 502 F.3d at 1277–79, to reach its
decision. However, after Holt, this is no longer the analysis. See Holt, 574 U.S. at 360–61
(“RLUIPA protects any exercise of religion, whether or not compelled by, or central to, a system
of religious belief.” (quotation marks omitted)).
9
App. 9

USCA11 Case: 21-10348

Date Filed: 02/10/2021

Page: 10 of 23

to determine the place of a particular belief in a religion or the plausibility of a
religious claim.” (quotation marks omitted)). The second principle is that the
availability of alternative means of practicing religion is not a relevant
consideration under RLUIPA. Holt, 574 U.S. at 361–62 (clarifying that the
substantial burden inquiry does not ask “whether the RLUIPA claimant is able to
engage in other forms of religious exercise”).
The District Court here violated both principles. Although it correctly found
Smith had a sincere belief that Pastor Wiley should be present in the execution
chamber, the court erred by finding Smith’s exercise of that belief was not
substantially burdened simply because Smith expressed a “preference” rather than
prove his belief was fundamental to his religion. The court also improperly relied
on alternative ways that Smith could practice his religion, including that Smith can
visit and pray with Pastor Wiley leading up to his execution and Pastor Wiley can
observe the execution from the viewing room.
Properly applying the substantial burden test, the evidence shows Smith has
met his burden. Smith believes “the point of transition between life and death is
important” and Pastor Wiley can provide spiritual guidance and comfort,
“including by holding his hand, praying with him in his final moments, and easing
the transition between the worlds of the living and the dead.” Smith believes Pastor
Wiley’s physical presence is “essential” to Smith’s “spiritual search for
10
App. 10

USCA11 Case: 21-10348

Date Filed: 02/10/2021

Page: 11 of 23

redemption.” We see no reason to overturn the District Court’s finding that Smith’s
belief was sincere, and instead evaluate the impact of the ADOC policy on that
belief. With the ADOC policy currently in place, Pastor Wiley cannot be
physically present with Smith during his execution. Smith will be unable to hold
Pastor Wiley’s hand and pray with him in his final moments. This required change
in the way Smith carries out his religious practices, directly resulting from the
ADOC’s policy, is enough for Smith to demonstrate the exercise of his religion is
substantially burdened. See Thai Meditation, 980 F.3d at 831. We therefore
conclude that Smith has stated a prima facie case.
2. Compelling Interest/Least Restrictive Means
Smith argues that “the ADOC was required to present evidence that it has a
compelling government interest in barring Pastor Wiley from the execution
chamber.” We reject his narrow definition of the government’s interest. The
ADOC’s compelling interest is in maintaining safety, security, and solemnity
during an execution. The prohibition on Pastor Wiley’s presence, specifically,
inside the execution chamber might promote the ADOC’s compelling interest—but
it is not the interest itself. See Gutierrez v. Saenz, 141 S. Ct. 127, 128 (2020)
(mem.) (granting a stay of execution and directing the District Court to determine
“whether serious security problems would result if a prisoner facing execution is

11
App. 11

USCA11 Case: 21-10348

Date Filed: 02/10/2021

Page: 12 of 23

permitted to choose the spiritual adviser the prisoner wishes to have in his
immediate presence during the execution” (emphasis added)).
“It is well established that states have a compelling interest in security and
order within their prisons.” Lawson v. Singletary, 85 F.3d 502, 512 (11th Cir.
1996) (per curiam) (finding Florida has a compelling interest in prison security);
see also Knight v. Thompson, 797 F.3d 934, 944 (11th Cir. 2015) (noting that “it is
also beyond dispute that the ADOC has compelling interests in security, discipline,
. . . and safety within its prisons”). After hearing evidence presented by both Smith
and the ADOC, the District Court found that the ADOC “has a compelling interest
of the highest order in preserving the solemnity, safety and security of its
executions.” The District Court’s findings referenced the evidence concerning
security threats during executions (both experienced and anticipated), the extensive
vetting process for execution team members, and the history of disciplinary
problems with ADOC-employed chaplains and religious volunteers.
Having determined that the ADOC has a compelling interest in maintaining
safety, security, and solemnity during an execution, the District Court then went on
to find the ADOC also met its burden of showing its policy excluding all
individuals—including spiritual advisors regardless of faith and employer—from
the execution chamber is narrowly tailored to further its compelling security
interest. Our review of the record leads us to the conclusion that this was an abuse
12
App. 12

USCA11 Case: 21-10348

Date Filed: 02/10/2021

Page: 13 of 23

of discretion. Contrary to the District Court’s holding, the ADOC “has not shown
that it lacks other means of achieving its desired goal without imposing a
substantial burden on the exercise of religion by” Smith in this case. Hobby Lobby,
573 U.S. at 728.
“The Supreme Court recently reminded us that ‘[t]he least-restrictive-means
standard is exceptionally demanding.’” Davila v. Gladden, 777 F.3d 1198, 1207
(11th Cir. 2015) (quoting Hobby Lobby, 573 U.S. at 728). “If a less restrictive
means is available for the Government to achieve its goals, the Government must
use it.” Holt, 574 U.S. at 365 (quotation marks omitted). Put differently, unless the
ADOC has proved that it cannot accommodate Pastor Wiley’s presence in the
Smith’s execution chamber, it must allow him to be there. In deciding whether a
policy is the least restrictive means, courts must inquire into “whether efficacious
less restrictive measures actually exist.” Knight, 797 F.3d at 946–47 (emphasis
added).
The District Court did no such inquiry here. Smith presented evidence that
on two occasions since July 2020, the federal BOP has allowed the spiritual
advisor of the prisoner’s choice to be present in the execution chamber. Smith’s
evidence shows that, under the BOP’s policy, the BOP was able to approve the
prisoner’s request for their spiritual advisor about two weeks before their
scheduled execution. The advisors underwent “the same standard background
13
App. 13

USCA11 Case: 21-10348

Date Filed: 02/10/2021

Page: 14 of 23

check required of all visitors to BOP facilities.” Neither spiritual advisor caused
any disruption or disturbance in the execution chamber.
The practices of other prison systems, like the BOP, is highly probative of
whether less restrictive measures can be pursued without compromising a
compelling interest. The Supreme Court has said that where other prisons allow
prisoners to engage in the particular religious practice “while ensuring prison
safety and security,” it “suggests that the [DOC] could satisfy its security concerns
through a means less restrictive than denying petitioner the exemption he seeks.”
Holt, 574 U.S. at 368–69. Yet the District Court did not consider the BOP policy in
reaching its decision. Indeed, its decision does not mention Smith’s evidence
regarding the BOP’s practice at all. We think it troubling that the District Court
ignored this highly probative evidence. Id. at 368 (“[T]he policies followed at other
well-run institutions would be relevant to a determination of the need for a
particular type of restriction.”); but see Knight, 797 F.3d at 1293 (rejecting
plaintiffs’ reliance on evidence of policies in 39 other state prisons because the
District Court considered the “detailed record” and did not give “unquestioning
deference” to ADOC policy).
The District Court’s failure to consider the BOP’s practice is especially
concerning because the ADOC conceded that it could undertake those very same
measures. Specifically, ADOC acknowledged it could “[c]onceivably . . . require
14
App. 14

USCA11 Case: 21-10348

Date Filed: 02/10/2021

Page: 15 of 23

an inmate to elect his spiritual advisor as soon as his execution date is set, and that
person could be subjected to a heightened background investigation.” The ADOC
thus conceded that an alternative policy existed, and that alternative is the precise
policy the BOP has followed without any problems. And at the same time the
ADOC provided no evidence that adopting this alternative—requiring spiritual
advisors to undergo a background investigation—would undermine its compelling
interest in security. See Holt, 574 U.S. at 365 (“The least-restrictive-means
standard is exceptionally demanding, and it requires the government to show that it
lacks other means of achieving its desired goal without imposing a substantial
burden on the exercise of religion by the objection party.” (alterations adopted and
quotation marks omitted)).
This is where the District Court’s analysis went astray. The court credited
the ADOC’s assertion that the background-investigation process may result in
excluding a prisoner’s chosen spiritual advisor as well as the ADOC’s claim that it
does not want to limit the people who could serve as a spiritual advisor. But the
ADOC’s assertion is not evidence that it cannot achieve its desired goal (security)
through the proposed alternative (a background investigation) without imposing a
substantial burden on the exercise of religion by Smith. Hobby Lobby, 573 U.S. at
728; see Knight, 797 F.3d at 945 (upholding ADOC policy because it showed

15
App. 15

USCA11 Case: 21-10348

Date Filed: 02/10/2021

Page: 16 of 23

“Plaintiffs’ proposed alternative . . . does not eliminate the ADOC’s security,
discipline, hygiene, and safety concerns”).
In sum the District Court credited the ADOC’s concession that it could
comply with a policy similar to that followed by the BOP, but did not hold the
ADOC to its burden to show its compelling interests were undermined by the less
restrictive policy. This was an abuse of discretion.
Because the ADOC failed to meet its burden to show its current policy is the
least restrictive means of furthering its compelling interest in maintaining security,
we hold Smith has shown a substantial likelihood of success on the merits of his
claims. We turn now to the remaining preliminary injunction requirements.
B. Irreparable Injury
The irreparable injury “must be neither remote nor speculative, but actual
and imminent.” Siegel v. LePore, 234 F.3d 1163, 1176 (11th Cir. 2000) (en banc)
(quotation marks omitted). In Ray v. Commissioner, Alabama Department of
Corrections, 915 F.3d 689 (11th Cir. 2019),4 this Court held that a Muslim
prisoner established irreparable injury in a religious freedom case when, “[i]n the
absence of a stay, Ray will die without the benefit . . . of sharing his final moments

4

The Supreme Court vacated this Court’s stay, holding that Ray’s claims were untimely. Dunn v.
Ray, 139 S. Ct. 661, 661 (2019) (mem.). The Supreme Court did not overturn this Court’s merits
analysis. See id.
16
App. 16

USCA11 Case: 21-10348

Date Filed: 02/10/2021

Page: 17 of 23

with a cleric who shares his faith and who will be able to provide prayer, spiritual
support and comfort at the moment of death.” Id. at 701. Smith is facing the same
injury here.5
Moreover, as the District Court acknowledged, “carrying out executions in
an unconstitutional manner would result in irreparable injury.” [Doc. 32: 55]
Therefore, because we conclude that the ADOC policy substantially burdened
Smith’s religious exercise, it follows that his execution would result in irreparable
injury.
There is one additional consideration raised by the District Court—that
Smith could have sought a preliminary injunction “much earlier than weeks prior
to his execution.” There are two problems with this. The first is that a delay is not
dispositive—it merely weighs against a showing of irreparable harm. See Wreal,
LLC v. Amazon.com, Inc., 840 F.3d 1244, 1247 (11th Cir. 2016). The second is
that, when acknowledging RLUIPA’s “broad protection of religious exercise,” 42
U.S.C. § 2000cc–3(g), and Smith’s showing that he is likely to succeed on his
claim that the ADOC policy violates his religious freedom, any delay is not so

5

Other courts have also held that an RLUIPA violation constitutes irreparable injury. See, e.g.,
Opulent Life Church v. City of Holly Springs, 697 F.3d 279, 295 (5th Cir. 2012); Warsoldier v.
Woodford, 418 F.3d 989, 1001 (9th Cir. 2005).
17
App. 17

USCA11 Case: 21-10348

Date Filed: 02/10/2021

Page: 18 of 23

weighty. Without an injunction, ADOC will likely execute Smith without Pastor
Wiley in the room with him as he passes. There is no do-over in this scenario.
For these reasons, we hold that Smith has shown he will suffer irreparable
injury if ADOC maintains its current policy.
C. Balance of Harms and the Public Interest
“[C]ourts must balance the competing claims of injury and must consider the
effect on each party of the granting or withholding of the requested relief.” Winter
v. Nat. Res. Def. Council, Inc., 555 U.S. 7, 24 (2008) (quotation marks omitted).
Courts must also determine where the public interest lies. See id. at 26. It is only if
the injunction is in the public’s interest that it may be granted. Id. at 20.
As this Court noted in Ray, “neither Alabama nor the public has any interest
in carrying out an execution in a manner that violates . . . the laws of the United
States.” 915 F.3d at 701–02. And other courts have recognized that, because
RLUIPA enforces the First Amendment and must be construed broadly to protect
religious exercise, an RLUIPA violation is in the public interest and tips the
balance of harms in the plaintiff’s favor.6 Moreover, the District Court also agreed

6

See Warsoldier, 418 F.3d at 1002; City Walk - Urban Mission Inc. v. Wakulla Cnty., 471 F.
Supp. 3d 1268, 1288 (N.D. Fla. 2020); Christian Fellowship Ctrs. of New York, Inc. v. Vill. of
Canton, 377 F. Supp. 3d 146, 166–67 (N.D.N.Y. 2019); Marshall v. Corbett, No. 3:13-CV02961, 2019 WL 4741761, at *12 (M.D. Pa. Aug. 8, 2019), report and recommendation adopted,
No. 3:13CV2961, 2019 WL 4736224 (M.D. Pa. Sept. 27, 2019); First Lutheran Church v. City
of St. Paul, 326 F. Supp. 3d 745, 769 (D. Minn. 2018).
18
App. 18

USCA11 Case: 21-10348

Date Filed: 02/10/2021

Page: 19 of 23

that executing a prisoner who is deprived of the opportunity to practice his faith
would “fail[] to serve the public interest.” Because we are required to correct the
court’s conclusion that Smith did not meet that burden here, we believe the balance
of harms to the parties and the public interest tip in Smith’s favor.
IV.

Conclusion

The District Court abused its discretion by improperly inquiring into Smith’s
religious beliefs and practices and finding the ADOC policy does not substantially
burden Smith’s religious exercise. The District Court also incorrectly applied the
least restrictive means inquiry. As a result, we hold that the court erred in finding
Smith failed to establish a substantial likelihood of success on the merits of his
RLUIPA and ARFA claims. We also hold that, in light of the burden ADOC’s
policy places on Smith’s religious exercise and the broad protection afforded by
RLUIPA, the balance of the remaining injunction factors tip in Smith’s favor. We
therefore reverse the District Court’s denial of Smith’s motion for injunctive relief
and grant the injunction requiring the ADOC to permit Smith to have Pastor Wiley
present in the execution chamber at the time of execution.
REVERSED.

19
App. 19

USCA11 Case: 21-10348

Date Filed: 02/10/2021

Page: 20 of 23

JORDAN, Circuit Judge, dissenting.
If this were a plenary appeal, I might well agree with the court that the
ADOC has failed to show under RLUIPA that it sought to accomplish its
compelling security (and other) interests through the least restrictive means. For
example, Cheryl Price, the ADOC’s regional director, testified that the ADOC
never looked into less restrictive means to safeguard its security interests in the
execution chamber other than barring the presence of non-employee religious
advisors. There was also evidence that the Federal Bureau of Prisons permits
spiritual advisors in the execution chamber, and that Colorado and New Mexico
did so as well before eliminating the death penalty. That practice, absent any
indication of problems, undercuts the ADOC’s flat-out prohibition to a fair degree.
See Spratt v. Rhode Island Dept. of Corrections, 482 F.3d 33, 41 n.11 (1st Cir.
2007) (“[T]o meet [RLUIPA’s] least restrictive means test, prison administrators
generally ought to explore at least some alternatives, and their rejection should
generally be accompanied by some measure of explanation.”)
But in an appeal from the grant or denial of a preliminary injunction, we
review for abuse of discretion and generally do not render any definitive
pronouncements on the merits. See, e.g., Doran v. Salem Inn, Inc., 422 U.S. 922,
932 (1975); Di Giorgio v. Causey, 488 F.2d 527, 528-29 (5th Cir. 1973). As
20
App. 20

USCA11 Case: 21-10348

Date Filed: 02/10/2021

Page: 21 of 23

relevant here, our consideration of the substantial likelihood of success prong—
including whether the ADOC is using the least restrictive means to accomplish its
compelling interests—is also for abuse of discretion. See Ashcroft v. A.C.L.U., 542
U.S. 656, 666 (2004); LSSi Data Corp. v. Comcast Phone LLC, 696 F.3d 1114,
1120 (11th Cir. 2012).
The abuse of discretion standard generally allows for a “range of choice as
to what [the district court] decides[.]” McLane Co., Inc. v. EEOC, 137 S. Ct. 1159,
1169 (2017). See also United States v. Frazier, 387 F.3d 1244, 1259 (11th Cir.
2004) (en banc) (the abuse of discretion standard permits a “range of choice so
long as that choice does not constitute a clear error of judgment”). Given this
deferential standard of review, I would affirm the district court’s denial of
injunctive relief to Mr. Smith.
The district court explained that, in its view, RLUIPA’s least restrictive
means requirement does not mean or suggest that prison officials must refute every
conceivable option or alternative. Given the current state of the law, that seems
like a reasonable assessment to me. See Holt v. Hobbs, 574 U.S. 352, 371 (2015)
(Sotomayor, J., concurring) (noting that “nothing in the Court’s opinion suggests
that prison officials must refute every conceivable option to satisfy RLUIPA’s least
restrictive means requirement”). Accord Greenhill v. Clarke, 944 F.3d 243, 251

21
App. 21

USCA11 Case: 21-10348

Date Filed: 02/10/2021

Page: 22 of 23

(4th Cir. 2019); Fowler v. Crawford, 534 F.3d 931, 940 (8th Cir. 2008); Spratt,
482 F.3d at 41 n.11.
On the evidentiary side of the calculus, the ADOC put on evidence that
having non-employees in the execution chamber when an inmate is being put to
death would create security problems due to issues of trustworthiness and
uncertainty about how such persons would behave or cope with the execution; that
requiring background checks and vetting for non-employee spiritual advisors can
limit the broad choice that inmates currently have in choosing their advisors; that
background checks (including criminal NCIC checks) and training of nonemployee spiritual advisors can take time; and that it cannot realistically hire, as
employees, persons from all faiths to be in the execution chamber with inmates
when they are being put to death. The district court concluded, from this and other
evidence, that the ADOC had considered alternatives to its ban on non-employee
spiritual advisors being in the execution chamber—such as heightened background
investigation procedures—but found those alternatives to be more restrictive of an
inmate’s ability to freely choose a spiritual advisor. And the court also explained
that the ADOC had such strong interests in safety, security, and solemnity that it
could not permit even a slight chance of interference with executions inside the
chamber.

22
App. 22

USCA11 Case: 21-10348

Date Filed: 02/10/2021

Page: 23 of 23

Whether the district court got RLUIPA’s least restrictive means requirement
right or wrong, I do not believe that its decision constitutes an abuse of discretion.
See Café 207, Inc. v. St. Johns County, 989 F.2d 1136, 1137 (11th Cir. 1993)
(“Whether the district court’s determination of this point [i.e., substantial
likelihood of success] is right or wrong, the record here indicates no abuse of
discretion.”). Because of my resolution of this issue, I need not and do not express
a view on the other matters addressed by the court.

23
App. 23

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 1 of 57

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF ALABAMA
NORTHERN DIVISION
WILLIE B. SMITH, III,
Plaintiff,
v.
JEFFERSON DUNN, Commissioner,
Alabama Department of Corrections,
Defendant.

)
)
)
)
)
)
)
)
)
)
)

CASE NO. 2:20-CV-1026-RAH
[WO]

MEMORANDUM OPINION AND ORDER
I. INTRODUCTION
On December 14, 2020, Willie B. Smith, III (“Smith”), a death-row inmate
housed at Holman Correctional Facility, 1 filed a complaint, pursuant to 42 U.S.C. §
1983, alleging that the Alabama Department of Corrections (“ADOC”) will violate
Smith’s right to exercise his religious beliefs by prohibiting the presence of his
personal spiritual advisor, a Christian minister, inside the execution chamber during
his execution, presently scheduled for February 11, 2021. Smith claims that the
ADOC’s blanket policy of prohibiting the presence of all persons who are not
members of the prison’s execution team, including spiritual advisors, from inside

1

Holman is the ADOC’s primary correctional facility for housing death row inmates and is the
only facility in the state of Alabama that carries out executions.

App. 24

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 2 of 57

the execution chamber abridges his federal statutory rights under the Religious Land
Use and Institutionalized Persons Act of 2000 (“RLUIPA”), 42 U.S.C. § 2000cc et
seq., his state constitutional rights under the Alabama Religious Freedom
Amendment (“ARFA”), Ala. Const. Art I, § 3.01, and his constitutional rights under
the Establishment and Free Exercise Clauses of the First Amendment to the United
States Constitution.2
Smith seeks declaratory and injunctive relief against Defendant Jefferson
Dunn, in his official capacity as the ADOC’s Commissioner.
On December 14, 2020, Smith filed an Emergency Motion for Preliminary
Injunction (Doc. 4), requesting that the ADOC be ordered to allow his personal
spiritual advisor, Pastor Robert Wiley, Jr., to not only be physically present inside
the execution chamber during Smith’s execution, but to pray with Smith, hold his
hand, and otherwise touch Smith at the moment of his death. According to Smith,
this practice “would provide Mr. Smith comfort, strengthen his resolve, and help
him properly express to God his repentance for any wrongs he has committed.”
(Doc. 1, p. 12.)

2

Initially, Smith also raised claims concerning an ADOC policy that prohibited him from attending
outdoor religious services every other Sunday with the general population inmates once Smith’s
execution date was set. That concern is now moot, due to the ADOC’s agreement to allow Smith
to listen to the Sunday services in the weeks preceding his scheduled execution. (See Doc. 12-1.)
The policy stems from security concerns that arise when a condemned inmate is allowed to interact
with the general population in the weeks preceding his scheduled execution.
2
App. 25

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 3 of 57

The ADOC filed a response in opposition to Smith’s Emergency Motion for
Preliminary Injunction. Within that response, the ADOC also moved to dismiss
Smith’s complaint, pursuant to Fed. R. Civ. P. 12(b)(6), for failure to state a claim
upon which relief may be granted. (Doc. 12.) Smith has replied to the ADOC’s
response to his motion and has responded to the ADOC’s motion to dismiss. (Doc.
13-1.) Following these filings, the court heard oral argument and allowed the parties
to file supplementary evidentiary submissions on the preliminary injunction issue.
Accordingly, this matter is ripe for review. For the reasons that follow, the ADOC’s
motion to dismiss is due to be GRANTED in part and DENIED in part, and Smith’s
motion for a preliminary injunction is due to be DENIED.
II. FACTUAL AND PROCEDURAL HISTORY
A. Smith’s Capital Litigation History
Following a jury trial, Smith was convicted of the 1991 execution-style
murder of Sharma Ruth Johnson during a robbery and kidnapping. See Smith v. State,
838 So. 2d 413 (Ala. Crim. App. 2002). By a vote of 10-2, a jury recommended the
death sentence. 3 The trial court accepted the jury’s recommendation and sentenced
Smith to death on July 17, 1992.
In 2002, the Alabama Court of Criminal Appeals affirmed Smith’s conviction

3

The trial court’s sentencing order can be found at C. 148–67 in the trial transcript, available in
Volume 1 of the habeas record filed in Smith v. Thomas, 2:13-cv-00557-RDP (N.D. Ala.).
3
App. 26

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 4 of 57

and death sentence. Id. at 477. The Alabama Supreme Court denied certiorari, see
Ex parte Smith, No. 1011228 (Ala. June 28, 2002), as did the United States Supreme
Court, see Smith v. Alabama, 537 U.S. 1090 (2002) (mem.).
Smith then proceeded with both state post-conviction and federal habeas
proceedings. On July 2, 2020, the United States Supreme Court denied certiorari as
to Smith’s habeas claims, thereby concluding Smith’s appeals. See Smith v. Dunn,
No. 19-7745, 2020 WL 3578738 (July 2, 2020) (mem.).
On November 25, 2020, Smith filed his first § 1983 complaint in the Middle
District of Alabama alleging both method-of-execution and Americans with
Disabilities Act claims. 4 After oral argument, that case was dismissed without
prejudice.5 On the same day that Smith’s initial § 1983 suit was dismissed, Smith
filed the present action.
B. The ADOC’s Change to its Execution Protocol
Historically, Holman’s Christian chaplain—an ADOC employee—was a
member of the prison’s execution team. (Doc. 27-6, p. 7.) Prior to April 2019, the
ADOC’s execution protocol required the chaplain’s presence inside the execution

4

On December 1, 2020, while Smith’s initial § 1983 case was ongoing, the Alabama Supreme
Court issued a death warrant, scheduling Smith’s execution on February 11, 2021.

5

Smith v. Dunn, Case No. 2:19-cv-927 (M.D. Ala. Dec. 14, 2020), Doc. 25. As of the date of this
order, Smith has amended his complaint in this initial § 1983 case and the ADOC has filed a
motion to dismiss, which remains pending.
4
App. 27

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 5 of 57

chamber during an execution. (Id.) In response to litigation in both Alabama and
Texas,6 the ADOC amended its execution protocol in April 2019 to remove its
Christian chaplain from the execution chamber. (Doc. 12, p. 12.) Therefore, under
the amended protocol, a condemned inmate cannot have anyone in the execution
chamber with him: not a spiritual advisor of his choosing, not the prison chaplain,
not his legal counsel, nor any friend or family member such as a mother, father,
spouse, or child.
But under the ADOC’s current protocol, a condemned inmate may have
contact visits from a free-world spiritual advisor in the days and moments preceding
his execution.7 On the day of his execution, the inmate’s spiritual advisor may
remain with the inmate in his cell until the inmate is escorted to the execution
chamber. His spiritual advisor may then witness the execution from the viewing
room but is not permitted to enter inside the execution chamber. At the moment of
execution, the spiritual advisor, along with other witnesses in the viewing room, can
be situated less than 10 feet away from the inmate, but will be separated by two-way
security glass. The ADOC’s policy applies to all religious personnel, regardless of
affiliation or employer, including the prison chaplain.8
6

See Doc. 12, p. 12; see also Doc. 27-9, pp. 25-27.

7

ADOC EXECUTION PROCEDURES 6, 7. (Doc. 27-2, pp. 6-7.)

8

Id., p. 8 (subsection IX.G.2).
5
App. 28

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 6 of 57

C. The Gutierrez Litigation
In 2019, death-sentenced inmate Ruben Gutierrez filed a similar lawsuit after
the Texas Department of Criminal Justice (“TDCJ”) amended its execution protocols
to remove its institutional chaplains from the execution chamber. Gutierrez alleged,
inter alia, that the change in protocol violated RLUIPA and the First Amendment. 9
Gutierrez requested an accommodation allowing his chosen spiritual advisor to be
permitted inside the execution chamber. In the alternative, Gutierrez asked that the
TDCJ revert to its long-standing policy of allowing the institutional chaplain’s
presence inside the chamber during his execution. The district court found that
Gutierrez had shown a likelihood of success on the merits of either his executionchamber claims or the DNA-testing claims raised in the same litigation.10 The
district court denied the TDCJ’s motion to dismiss and granted Gutierrez’s motion
to stay his execution.
On appeal, the Fifth Circuit disagreed with the trial court, holding in part that
Gutierrez failed to make a strong showing of success on the RLUIPA claim, noting
that the TDCJ’s policy did not substantially burden Gutierrez’s ability to exercise
his religion. Gutierrez v. Saenz, 818 F. App’x 309, 314-15 (5th Cir. 2020). Gutierrez

9

Gutierrez v. Saenz, Case No. 19-cv-185 (S.D. Tex. 2019).

10

Id., Doc. 48; Doc. 57, p. 3.
6
App. 29

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 7 of 57

then filed a petition for a writ of certiorari in the United States Supreme Court.
In June 2020, the Supreme Court granted a stay of execution and ordered the
district court to develop a narrow factual issue: “whether serious security problems
would result if a prisoner facing execution is permitted to choose the spiritual advisor
the prisoner wishes to have in his immediate physical presence during the
execution.” Gutierrez v. Saenz, 141 S. Ct. 127, 128 (2020) (mem).
In compliance with this order, the district court considered the evidence and
briefs submitted by the parties and concluded that “no serious security problems
would result” if death-sentenced inmates were permitted to have the spiritual
advisors of their choosing to be present with them inside the execution chamber. 11
Upon review of the trial court’s findings, the Supreme Court granted
certiorari, vacated the Fifth Circuit’s order, and remanded the case to the Fifth
Circuit with instructions to remand to the district court for “further and prompt
consideration” of Gutierrez’s claims regarding the presence of a spiritual advisor
inside the execution chamber. Gutierrez v. Saenz, No. 19-8695, 2021 WL 231538
(Jan. 25, 2021) (mem).
III. JURISDICTION AND VENUE
The Court has original subject matter jurisdiction of this case pursuant to 28
U.S.C. § 1331. Personal jurisdiction and venue are uncontested, and the Court
11

Gutierrez v. Saenz, Case No. 19-cv-185 (S.D. Tex. 2019), Doc. 124, p. 2.
7
App. 30

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 8 of 57

concludes that venue properly lies in the Middle District of Alabama. See 28 U.S.C.
§ 1391.
III. STANDARD OF REVIEW
A. ADOC’s Motion to Dismiss Under Fed. R. Civ. P. 12(b)(6)
A Rule 12(b)(6) motion to dismiss tests the sufficiency of the complaint
against the legal standard set forth in Federal Rule of Civil Procedure 8: “a short and
plain statement of the claim showing that the pleader is entitled to relief.” Fed. R.
Civ. P. 8(a)(2). “To survive a motion to dismiss, a complaint must contain sufficient
factual matter, accepted as true, to ‘state a claim to relief that is plausible on its
face.’” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 570 (2007)).
In ruling on a motion to dismiss for failure to state a claim on which relief can
be granted, the court must accept well-pleaded facts as true, but the court is not
required to accept a plaintiff’s legal conclusions. Iqbal, 556 U.S. at 678. A complaint
may be dismissed if the facts as pled do not state a claim for relief that is plausible
on its face. See id. at 679 (explaining “only a complaint that states a plausible claim
for relief survives a motion to dismiss”). “Determining whether a complaint states
a plausible claim for relief [is] . . . a context-specific task that requires the reviewing
court to draw on its judicial experience and common sense.” Id. The plausibility
standard requires “more than a sheer possibility that a defendant has acted
8
App. 31

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 9 of 57

unlawfully.” Id. at 678.
Factual allegations in a complaint need not be detailed but “must be enough
to raise a right to relief above the speculative level . . . on the assumption that all the
allegations in the complaint are true (even if doubtful in fact).” Twombly, 550 U.S.
at 555 (internal citations omitted).

Conclusory allegations that are merely

“conceivable” and fail to rise “above the speculative level” are insufficient to meet
the plausibility standard. Id. This pleading standard “does not require ‘detailed
factual allegations,’ but it demands more than an unadorned, the-defendantunlawfully-harmed-me accusation.” Iqbal, 556 U.S. at 678. Indeed, “[a] pleading
that offers ‘labels and conclusions’ or ‘a formulaic recitation of the elements of a
cause of action will not do.’” Id. It is the plaintiff’s responsibility to allege sufficient
facts to support his claims. See Twombly, 550 U.S. at 555.
B. Smith’s Emergency Motion for Preliminary Injunction
A party seeking emergency injunctive relief must establish four elements:
“(1) a substantial likelihood of success on the merits of the underlying case, (2) the
movant will suffer irreparable harm in the absence of an injunction, (3) the harm
suffered by the movant in the absence of an injunction would exceed the harm
suffered by the opposing party if the injunction issued, and (4) an injunction would
not disserve the public interest.” North Am. Med. Corp. v. Axiom Worldwide, Inc.,
522 F.3d 1211, 1217 (11th Cir. 2008) (quoting Johnson & Johnson Vision Care, Inc.
9
App. 32

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 10 of 57

v. 1-800 Contacts, Inc., 299 F.3d 1242, 1246-47 (11th Cir. 2002)).
A preliminary injunction requires showing “imminent irreparable harm” and
“a delay in seeking a preliminary injunction of even only a few months—though not
necessarily fatal—militates against a finding of irreparable harm.” See Wreal, LLC
v. Amazon.com, Inc., 840 F.3d 1244, 1248 (11th Cir. 2016).
Courts apply a “sliding scale” by “considering the probability of plaintiffs’
winning on the merits and plaintiffs’ irreparable injury in the absence of
interlocutory relief.” Siff v. State Democratic Executive Comm., 500 F.2d 1307, 1309
(5th Cir. 1974); see also State of Texas v. Seatrain Intern., S.A., 518 F.2d 175, 180
(5th Cir. 1975) (“[N]one of the four prerequisites has a fixed quantitative value.
Rather, a sliding scale is utilized, which takes into account the intensity of each in a
given calculus.”). 12
In ruling on a preliminary injunction, the court may consider evidence, even
hearsay evidence, submitted by the parties. See Levi Strauss & Co. v. Sunrise Intern.
Trading, Inc., 51 F.3d 982, 985 (11th Cir. 1995).
IV. DISCUSSION
The ADOC contends that Smith’s RLUIPA and ARFA claims and his

12

The Eleventh Circuit has adopted as precedent all decisions of the former Fifth Circuit issued
prior to October 1, 1981, and all former Fifth Circuit Unit B and non-unit decisions rendered after
October 1, 1981. See Stein v. Reynolds Secur., Inc., 667 F.2d 33, 34 (11th Cir. 1982); Bonner v.
City of Prichard, 661 F.2d 1206, 1207 (11th Cir. 1981) (en banc).
10
App. 33

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 11 of 57

constitutional claims asserting violations of the First Amendment’s Establishment
and Free Exercises Clauses should be dismissed because Smith fails to state a claim
for which relief can be granted. On the premise that Smith’s claims are subject to
dismissal under Fed. R. Civ. P. 12(b)(6), the ADOC submits that Smith is not entitled
to the preliminary injunctive relief he seeks. The court addresses each claim in turn.
A. RLUIPA Claim
Smith claims that the ADOC will violate RLUIPA by denying his request for
his spiritual advisor, a Christian minister, to be present inside the execution chamber
during his execution. Smith believes that his pastor’s presence during his execution
is “essential for his spiritual well-being” and will provide Smith comfort to “ease the
transition between the worlds of the living and the dead.” (Doc. 1, pp. 2, 11.)13 Smith
alleges that the ADOC’s refusal to allow his pastor’s presence in the execution
chamber will substantially burden his religious exercise. (Id., p. 13.)
RLUIPA provides:
No government shall impose a substantial burden on the religious
exercise of a person residing in or confined to an institution . . .
even if the burden results from a rule of general applicability,
unless the government demonstrates that imposition of the
burden on that person —
(1) is in furtherance of a compelling governmental interest; and
(2) is the least restrictive means of furthering that compelling
13

Citations to page numbers in documents filed in this case will be to the page number generated
by the court’s CM/ECF system.
11
App. 34

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 12 of 57

governmental interest.
42 U.S.C. § 2000cc-1(a).
To establish a prima facie case under RUILPA, Smith bears the initial burden
of showing “(1) that he engaged in a religious exercise, and (2) that the religious
exercise was substantially burdened by a government practice.” Muhammad v. Sapp,
388 F. App’x 892, 895 (11th Cir. 2010). If Smith establishes a prima facie case, the
burden shifts to the ADOC to show that the challenged government practice is “in
furtherance of a compelling governmental interest” and “is the least restrictive
means of furthering that compelling governmental interest.” Id. Conversely, if
Smith fails to present evidence to establish a prima facie case, the court need not
inquire into whether the governmental interest at stake is compelling. See Smith v.
Allen, 502 F.3d 1255, 1276 (11th Cir. 2007) (abrogated on other grounds); Midrash
Sephardi, Inc. v. Town of Surfside, 366 F.3d 1214, 1228 (11th Cir. 2004).
Context matters in the application of the compelling governmental interest
standard. Cutter v. Wilkinson, 544 U.S. 709, 723 (2005). The standard is applied
with “due deference to the experience and expertise of prison and jail administrators
in establishing necessary regulations and procedures to maintain good order, security
and discipline, consistent with consideration of costs and limited resources.” Id.
1. Defendant ADOC’s Motion to Dismiss
The ADOC argues that Smith has failed to state a RLUIPA claim upon which
12
App. 35

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 13 of 57

relief may be granted because he has failed to plead facts showing that the ADOC
will “substantially burden” the exercise of his religion. (Doc. 12, pp. 19-23.) Smith
counters that he has adequately stated a facially plausible claim for relief by pleading
facts that allege a substantial burden on his religious exercise. (Doc. 13-1, p. 26.)
As noted above, RLUIPA uses a burden-shifting framework. Smith bears the
initial burden of establishing a prima facie violation of RLUIPA. To do so, Smith
must allege that he will engage in a religious exercise and that his religious exercise
will be substantially burdened by a government practice.
In his Complaint, Smith avers that he is a practicing Christian and that it is
“integral to [his] faith that Pastor Wiley be physically present with him at the time
of his execution.” (Doc. 1, p. 11.) Smith further contends that the ADOC’s refusal
to allow Pastor Wiley’s presence in the execution chamber substantially burdens his
religious practice by preventing Smith and his pastor from praying together and
holding hands at the moment of his passing. (See id., pp. 10-13.)
Construing the facts in the Complaint in favor of Smith, as the court must do
at this stage, and assuming the truthfulness of Smith’s statements that he is a
practicing Christian and that his request for his pastor to be physically present with
him in the execution chamber is an important aspect of his faith, Smith has
sufficiently pled a RLUIPA violation. Smith has sufficiently alleged both that he
wishes to engage in a religious practice and that the ADOC’s blanket policy of
13
App. 36

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 14 of 57

excluding spiritual advisors in the execution chamber will substantially burden his
religious practice by preventing him from praying with and receiving comfort from
his pastor in the final moments of his life. Because Smith’s allegations plead a claim
that is plausible on its face, the ADOC’s motion to dismiss is due to be DENIED as
to Smith’s RLUIPA claim.
2. Smith’s Emergency Motion for Preliminary Injunction
Smith argues that without this court’s intervention, the ADOC will execute
Smith in violation of his “statutorily . . . protected religious solace” under RLUIPA.
(Doc. 4, p. 7.) Smith points to his sincerely held religious beliefs, the ADOC’s
policy of disallowing all spiritual advisors in the execution chamber, and recent
Supreme Court decisions to support his position that he would be successful on the
merits of his claims. (Doc. 4, pp. 9-10, 12-17.) The ADOC responds by arguing that
Smith cannot meet the necessary elements for a preliminary injunction because
Smith is not likely to succeed on the merits of his RLUIPA claim, will not suffer
irreparable harm, and that the public’s interest weighs in favor of denying injunctive
relief. (Doc. 12, pp. 41-44.)
a. Likelihood of Success on the Merits
As noted above, to succeed on the merits of his RLUIPA claim, Smith must
show (1) that he will engage in a religious exercise, and (2) that his religious exercise
will be substantially burdened. See Adkins v. Kaspar, 393 F.3d 559, 567 (5th Cir.
14
App. 37

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 15 of 57

2004); 42 U.S.C. § 2000cc–1(a). If Smith succeeds in demonstrating a prima facie
case, the ADOC must then show that the challenged government action “is in
furtherance of a compelling governmental interest” and “is the least restrictive
means of furthering that compelling governmental interest.” 42 U.S.C. §§ 2000cc–
1(a), 2000cc–2(b). In contrast, if Smith fails to present evidence to support a prima
facie case under RLUIPA, the court need not inquire into whether the governmental
interest at stake is compelling. See Midrash, 366 F.3d at 1228.
i.

Sincere Religious Practice

To succeed on his RLUIPA claim, Smith bears the initial burden of presenting
evidence demonstrating that his observance of Christianity and his belief that his
pastor’s physical presence will provide comfort during his execution constitute a
“religious exercise” under the statute. See Adkins, 393 F.3d at 567. A “religious
exercise” is broadly defined under RLUIPA as “any exercise of religion, whether or
not compelled by, or central to, a system of religious belief.” 42 U.S.C. § 2000cc–
5(7)(A).
Along with his motion, Smith submitted two declarations: one from Smith’s
attorney on Smith’s behalf 14 and a second from Pastor Wiley. Smith’s declaration

14

Due to current COVID-19 safety protocols, the ADOC is not allowing in-person visitation at its
penal facilities. As a result, Smith gave permission for his counsel to sign a sworn declaration on
Smith’s behalf to avoid “delay in his ability to bring a timely action.” (See Doc. 4-1, p. 1.)
Although attorney affidavits in this fashion are disfavored, under the current pandemic situation
15
App. 38

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 16 of 57

avers that Smith is a devout Christian and has a close, spiritual connection with
Pastor Wiley. (Doc. 4-1, p. 2.) The declaration further states that Smith’s faith
teaches that the point of transition between life and death is important and that Smith
believes Pastor Wiley can provide spiritual comfort in his final moments. (Id.)
In his declaration, Pastor Wiley submits that in the Christian faith, Christians
provide strength and comfort to one another, adding that there is “no greater time to
need that comfort than when . . . facing loss of your own life.” (Doc. 4-2, p. 2.) Pastor
Wiley further states that he shares Smith’s belief that his physical presence inside
the execution chamber will provide comfort and solace to Smith. (Id.)
In light of RLUIPA’s all-encompassing definition of “religious exercise,”
Smith’s declaration through his attorney, and Pastor Wiley’s statements, this court
concludes that Smith's practice of Christianity and his belief that his pastor should
be physically present with him in the execution chamber constitute a “religious
exercise” for purposes of a RLUIPA claim.
ii.

Substantial Burden

The Eleventh Circuit has previously defined a “substantial burden” as
including “significant pressure which directly coerces the religious adherent to
conform his or her behavior accordingly.” Midrash, 366 F.3d at 1227. Importantly,

and in the absence of an objection by the ADOC, the court will overlook the admissibility issues
associated with such a filing.
16
App. 39

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 17 of 57

the Circuit has made clear that, in order to constitute a “substantial burden” on
religious practice, the government's action must be “more than . . . incidental” and
“must place more than an inconvenience on religious exercise.” Id. (citation
omitted). Therefore, to constitute a substantial burden under RLUIPA, the
governmental action must considerably hamper one's religious exercise.
“While it is true that courts are not to inquire into the centrality of a particular
religious tenet in undertaking the substantial burden analysis, . . . at a minimum the
substantial burden test requires that a RLUIPA plaintiff demonstrate that the
government's denial of a particular religious item or observance was more than an
inconvenience to one's religious practice.” Allen, 502 F.3d at 1278; see also Lyng v.
Northwest Indian Cemetery Protective Ass'n, 485 U.S. 439, 450 (1988) (indicating
that, to constitute a substantial burden, the government action must do more than
make it more difficult to practice one's religion, it should coerce individuals into
acting contrary to their religious beliefs); Adkins, 393 F.3d at 569–70 (explaining
that a substantial burden “pressures the adherent to significantly modify his religious
behavior and significantly violate his religious beliefs”); San Jose Christian Coll. v.
City of Morgan Hill, 360 F.3d 1024, 1034 (9th Cir. 2004) (defining substantial
burden as an “oppressive” and “significantly great restriction or onus upon
[religious] exercise”); Civil Liberties for Urban Believers v. City of Chicago, 342
F.3d 752, 761 (7th Cir. 2003) (holding that a substantial burden “necessarily bears
17
App. 40

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 18 of 57

direct, primary, and fundamental responsibility for rendering religious exercise . . .
effectively impracticable”).
Importantly, more is needed than the inmate's own statements to establish that
one's religious practice is substantially burdened. Without evidence from outside,
authoritative sources regarding the tenets and practices of a particular religion, a
substantial burden may not be proven. Allen, 502 F.3d at 1277–80; see also Smith v.
Governor for Alabama, 562 F. App'x 806, 813 (11th Cir. 2014); Gelford v. Frank,
310 F. App'x 887, 889 (7th Cir. 2008) (affirming denial of an inmate’s claim for
runes and other divination tools for the practice of Wicca on grounds that there was
no formidable evidence of a substantial burden, only the inmate’s “unreasoned sayso”) (citing Borzych v. Frank, 439 F.3d 388, 390 (7th Cir. 2006)).
The Eleventh Circuit case of Smith v. Allen provides guidance to this court's
analysis of the instant case. The plaintiff in that case, also a prisoner, requested
permission to possess a small quartz crystal for use in his practice of Odinism. After
reviewing materials relevant to the principles of Odinism, the prison’s chaplain
found no evidence of the need for a crystal in practicing the religion, and as a result,
the use of the crystal was denied. Allen, 502 F.3d at 1277. The Eleventh Circuit
agreed, holding that the plaintiff had presented “no evidence to demonstrate that a .
. . crystal was fundamental” to his religious practice such that the denial “effectuated
any more than an inconvenience on his religious exercise.” Id. at 1278.
18
App. 41

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 19 of 57

Consequently, the court held that the plaintiff had failed to establish a prima facie
case that the practice of his religion was substantially burdened. Id. at 1279.
The Eleventh Circuit similarly denied the plaintiff's other claims regarding the
denial of a designated area of worship and the denial of a small fire pit instead of the
candle he was provided, noting the plaintiff failed to provide evidence from any
outside sources to establish that either was necessary to the practice of his religion.
Id. at 1279–80; see also Muhammad v. Sapp, 388 F. App'x 892, 896 (11th Cir. 2010)
(finding no substantial burden with regard to Muslim inmate's not receiving a Qibla
compass because no evidence was proffered to establish that the compass was
fundamental to his practice of Islam); Adams v. Mosley, No. 2:05CV352-MHT, 2008
WL 4369246, at *11 (M.D. Ala. Sept. 25, 2008) (same with regard to inmate seeking
to use tobacco, instead of an herbal substitute, for use in the practice of his Native
American religion); Avila v. McDonough, No. 3:05CV280/LAC/EMT, 2007 WL
2480246, at *7 (N.D. Fla. Aug. 30, 2007) (finding no substantial burden with regard
to inmate's request for specific beads in the practice of his Santerían faith when other
types of beads were allowed to him); Krieger v. Brown, No. 5:08-CT-3090-FL, 2010
WL 4026090, at *5 (E.D.N.C. Oct. 13, 2010) (same with regard to denial of an
outdoor worship circle for an inmate's practice of Asatru).
In the instant case, Smith submitted two declarations as evidence in support
of his motion for preliminary injunction. Both declarations describe Smith’s belief
19
App. 42

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 20 of 57

that Pastor Wiley’s presence in the execution chamber will provide comfort to Smith
at the time of his execution. (See Docs. 4-1, 4-2.) After oral argument was heard in
this case, this court gave the parties leave to file additional evidence in support of
their respective positions. (See Docs. 20, 23.) While Smith did file additional
evidence, his submissions were directed toward challenging the ADOC’s
compelling interest in the security of its executions and whether its practice of
prohibiting all persons, including spiritual advisors, inside the execution chamber
was the least restrictive means of addressing those security concerns. (See generally
Doc. 26.) Smith provided the court with no supplementary resources that speak to
the potential burden the ADOC’s protocol would have on his religious practice. As
a result, the court is left to solely rely on the two declarations to determine whether
a substantial burden exists.
In his declaration, Smith contends that Pastor Wiley’s physical presence
inside the execution chamber during his execution would “provide him spiritual
comfort and help relieve his struggle as he passes, including by holding his hand,
praying with him in his final moments, and easing the transition between the worlds
of the living and the dead.” (Doc. 4-1, pp. 2-3.) Similarly, Pastor Wiley’s declaration
highlights the need for Christian believers to comfort one another, particularly in
difficult moments such as facing one’s own death. (Doc. 4-2, p. 2.) Pastor Wiley
agrees that his presence in the execution chamber will give Smith “comfort and
20
App. 43

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 21 of 57

solace as he leaves the physical world and enters the afterlife.” (Id.)
While these declarations certainly speak to Smith’s beliefs as a practicing
Christian and his desire for comfort and spiritual guidance during his execution, this
evidence is not sufficient to prove a substantial burden on Smith’s religious
practices. Smith has only expressed a preference for Pastor Wiley’s presence in the
execution chamber; he has provided the court with no evidence that the ADOC’s
policy substantially burdens his religious exercise or prevents him from participating
in an integral component of his faith.
The case of Smith v. Allen is again instructive here. There, the plaintiff argued
that the prison’s outright denial of his request for an accommodation in accordance
with his sincerely held religious beliefs was enough, standing alone, to demonstrate
a substantial burden on his religious exercise. Allen, 502 F.3d at 1277. The Eleventh
Circuit decidedly rejected this argument:
Such an expansive reading of section 3, however, would
require us to find a substantial burden whenever any request in
connection with a sincere religious belief was denied by a state
prison. If the word “substantial” in the statutory phrase
“substantial burden,” 42 U.S.C. § 2000cc–1(a), is to retain any
meaning, it must, at a minimum, be construed as requiring
something more than solely the denial of a request that is sincere.
An alternate approach, like the one advocated by Smith, would
result in the word “substantial” in § 2000cc–1(a) as being mere
surplusage, since every governmental action denying a requested
item to be used in religious observance would give rise to a prima
facie RLUIPA claim. We decline to adopt such an expansive
reading of section 3 of RLUIPA.
21
App. 44

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 22 of 57

Id. at 1278.
Similarly, Smith, the plaintiff here, has provided the court with evidence of
his sincere belief and of the ADOC’s refusal to allow his pastor’s presence inside
the execution chamber. But this alone is simply insufficient to demonstrate that the
ADOC’s policy is more than an incidental burden on Smith’s religious exercise.
Smith is still free to fully engage in the practices of his faith. Crucially, the ADOC’s
policy allows Smith to have in-person contact visits with his pastor in the days and
moments leading up to his execution. (Doc. 27-6.) The two may pray together, touch
one another, and study spiritual text together. In fact, on the day of his execution,
Pastor Wiley will be permitted to visit with Smith and remain with him in his cell.
(Id.) The two will be separated only when it is time for Smith to enter the execution
chamber, a matter of only minutes before the actual execution proceeds. (Id.) Then,
at the moment of execution, the ADOC’s policy allows Pastor Wiley to observe the
execution from the viewing room, mere feet away from Smith and separated only by
a pane of glass, in full view of each other.15
Smith has provided no evidence that either he or Pastor Wiley is prevented
from praying during the execution, or that they will not be in the presence of each
another, or that Smith cannot see Pastor Wiley in the viewing room during the
execution. He also has not shown that the ADOC’s policy will coerce him to violate
15

See ADOC EXECUTION PROCEDURES 6, 7, note 7, supra; see also Doc. 27-4.
22
App. 45

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 23 of 57

his beliefs, to forego a fundamental religious tenet, or to render the performance of
a religious exercise essentially impracticable. Smith does not claim, for example,
that absent Pastor Wiley’s presence in the execution chamber, God will not hear
Smith’s prayers of repentance, or that without Pastor Wiley holding his hand at the
moment of death, Smith’s soul would not pass to heaven. In short, Smith has not
demonstrated that the ADOC’s policy would amount to more than an inconvenience
or hindrance in the exercise of his Christian faith. As a result, this court finds that
Smith has failed to show how the ADOC’s policy will substantially burden his
religious exercise.
iii.

Compelling Governmental Interest

Even if Smith was able to demonstrate a substantial burden on his religious
exercise, the ADOC nonetheless has a compelling interest in protecting the safety,
security, and solemnity of the chamber, its occupants during an execution, and the
execution process itself.
The death penalty is unquestionably a highly controversial topic, attracting
proponents and opponents world-wide. And executions themselves are inherently
emotionally charged events, which create the need for increased security and
heightened safety precautions for everyone involved with an execution: prison
personnel, witnesses viewing the execution, and the inmate himself.
Smith contends that the ADOC’s previous, long-standing practice of allowing
23
App. 46

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 24 of 57

the ADOC-employed institutional chaplain into the execution chamber shows that
granting his request would have no significant impact on the ADOC’s interest in
security. (Doc. 4, p. 15.) In response, the ADOC argues that its policy “serves the
compelling government interest of maintaining security and solemnity during
executions.” (Doc. 12, p. 42.)
Although the ADOC bears the burden of proof on the compelling interest and
least restrictive means prongs of RLUIPA, RLUIPA’s legislative history clearly
indicates that prison officials are entitled to due deference on issues relating to “good
order, security and discipline, consistent with consideration of costs and limited
resources.” S. REP. NO. S7775 (July 27, 2000); see also Cutter v. Wilkinson, 544
U.S. 709, 716-17 (2005) (Congress “anticipated . . . that courts entertaining
complaints under [RLUIPA] would accord ‘due deference to the experience and
expertise of prison and jail administrators.’”) (quoting 146 Cong. Rec. 16698, 16699
(2000) (joint statement of Sens. Hatch and Kennedy)). However, this deference is
not absolute and “inadequately formulated prison regulations and policies grounded
on mere speculation, exaggerated fears, or post-hoc rationalizations will not suffice
to meet the act’s requirements.” Benning v. Georgia, 845 F. Supp. 2d 1372, 1382
(M.D. Ga. 2012) (citing 146 Cong. Rec. S7774–01, *S7775 (July 27, 2000)).
The ADOC has submitted evidence in support of its compelling interest
argument, including affidavits of ADOC employees, copies of ADOC administrative
24
App. 47

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 25 of 57

regulations, and excerpts of deposition testimony taken in a similar case 16 currently
being litigated in this court. (Doc. 27.)
In her affidavit, the ADOC’s Assistant Deputy Commissioner of Operations
described the ADOC’s policies and security practices surrounding executions. (Doc.
27-6.) These “heightened security measures” are implemented from the time an
execution is announced and include the placement of the inmate on “single-walk”
status where he is prohibited from interacting with other inmates. (Id., pp. 4-5.)
Further, during the week leading up to an execution, the ADOC retains an outside
security team to guard the penal facility, and local law enforcement is alerted to the
impending execution. (Id., p. 5.) The condemned inmate is also moved to a separate
holding cell, is observed around the clock, and his visitation is held in a separate area
under the constant supervision of correctional officers. (Id.) On the day of the
execution, both Holman and nearby Fountain Correctional Facility go into
lockdown. (Id.) And the outside security team provides protection outside the
facility while the execution team closely monitors the inmate and his final visitors
inside the facility. (Id., pp. 5-6.)
The ADOC contends it is concerned not only with interference from outside

16

Similar claims are being made by a Muslim death row inmate in the matter styled Charles L.
Burton, Jr. v. Jefferson Dunn, et al., Case No. 2:19-cv-242-RAH (M.D. Ala. 2019). As of the date
of this order, the parties in that matter are in the final stages of briefing their respective summary
judgment motions.
25
App. 48

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 26 of 57

the prison, but also with those individuals who participate in the execution itself. In
this regard, the ADOC’s protocol provides that only members of the trained
execution team are allowed inside the execution chamber during the execution.17
(See Doc. 27-6.) These individuals have not only undergone the standard ADOC
employee background investigation process, but they have been personally selected
by the warden based on their experience and demonstrated trustworthiness during
their time as ADOC employees. (Id., pp. 6-7.) These individuals are trained in the
ADOC’s execution protocol and take part in an in-person walk-through of the
execution procedure before carrying out each execution. (Doc. 26-13, p. 3.) As a
result of this vetting, training, and demonstrated trustworthiness, the execution team
constitutes the only individuals permitted by the ADOC protocol to be present in the
chamber during the execution; all other individuals are excluded, including the
warden himself, the ADOC Commissioner, other ADOC employees, and ADOC
legal counsel. (See generally Doc. 27.) The ADOC credits this exclusionary policy
with its demonstrated history of secure, efficient, and dignified executions. (Doc.
27-9, p. 9.)

17

If a condemned inmate is being executed by lethal injection, the ADOC uses an “IV Team”
consisting of non-ADOC medical personnel that the ADOC selects. (Doc. 27-9, pp. 12-13.) This
team is escorted into the chamber once the inmate is strapped to the gurney and starts the inmate’s
IV, but these individuals are not permitted to remain in the execution chamber during the execution
itself. (Id., pp. 12-15.) The members of this team also undergo standard ADOC employee
background checks. (Id., p. 14.)
26
App. 49

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 27 of 57

The ADOC further argues that these strict security measures largely result
from both anticipated and actual disturbances 18 leading up to scheduled executions.
The ADOC notes, for example, that during the 2010 execution of Holly Wood, his
sisters, who were seated in the viewing room, “began to scream and violently bang
on the glass window” of the execution chamber. (Doc. 27-6, pp. 8-9.) In 2017,
during the execution of Torey McNabb, McNabb’s brother threatened law
enforcement, his mother had to be reprimanded for her behavior in the viewing room,
and McNabb used his final words to curse the ADOC. (Id., p. 9.) That same year,
death row inmates at Holman protested a fellow inmate’s execution by staging “a
coordinated refusal to obey orders.” (Id., p. 5.) Then, in 2019, in the moments before
the execution of Christopher Price, Price refused to leave his cell and enter the
execution chamber, threatening to “take out” anyone who came into his cell, thereby
resulting in his forced extraction. (Id., pp. 6, 8.)
Despite these incidents involving non-ADOC employees, Smith argues that
the ADOC’s history of allowing an ADOC-employed prison chaplain in the
execution chamber undercuts the ADOC’s argument that the presence of a spiritual
18

The ADOC focuses its argument on the security concerns that arise from having a free-world
advisor of the inmate’s choosing inside the execution chamber. The ADOC has not claimed an
interest attendant to issues associated with a medical complication from the execution itself, such
as the one mentioned by Justice Kavanaugh in his concurrence in Murphy v. Collier, ___ U.S. ___,
139 S. Ct. 1475 (2019) (“Things can go wrong and sometimes do go wrong in executions, as they
can go wrong and sometimes do go wrong in medical procedures. States therefore have a strong
interest in tightly controlling access to an execution room in order to ensure that the execution
occurs without any complications, distractions, or disruptions.”).
27
App. 50

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 28 of 57

advisor implicates a compelling security interest. But the ADOC also has presented
evidence showing that security concerns exist even with ADOC-employed chaplains
and religious volunteers. Holman’s long-serving chaplain provided testimony that a
previous prison chaplain was fired after smuggling contraband into the prison. (Doc.
27-8, pp. 33.) The chaplain further testified that multiple religious volunteers have
been reprimanded or banned from returning to the prison for breaking prison rules.
(Id., p. 36.) Thus, the ADOC posits that even ADOC-employed or affiliated
chaplains can pose a risk inside the prison.
For his part, Smith has submitted a report and testimony from Emmitt
Sparkman, a correctional consultant with more than four decades of experience.
After reviewing the ADOC’s protocol and practices, Sparkman opines that allowing
an inmate’s chosen spiritual advisor to be present in the execution chamber during
the execution creates no heightened security risk. (Doc. 26-7.) Smith also presents
evidence indicating that two states and the Federal Bureau of Prisons (BOP)
previously have allowed non-employee spiritual advisors in their execution
chambers during an execution.19 (Docs. 26-5 and 26-10.)
19

In fact, both parties have noted the federal BOP’s recent practice of allowing non-employee
spiritual advisors inside the BOP’s execution chamber. Smith argues that this practice indicates a
lack or nonexistence of a security concern. Neither party, however, has provided the court with
detailed information regarding the BOP’s practice or policy, the security measures the BOP
implements prior to approving an advisor’s presence, the timeline and procedure of selecting and
approving an advisor, the details of what a spiritual advisor can and cannot do inside the chamber
or where the advisor can stand, or what measures BOP has in place inside the execution chamber
to account for the risks presented by an outside individual’s presence at the time of execution.
28
App. 51

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 29 of 57

Smith’s evidence, viewed against the ADOC’s evidence, however, fails to
convince the court that the ADOC does not have a compelling security interest in
tightly controlling access to the execution chamber during an execution.20 Indeed,
the ADOC has a compelling governmental interest “of the highest order” in
preserving the solemnity, safety and security of its executions as well as a “moral
obligation to carry out executions with the degree of seriousness and respect that the
state-administered termination of human life demands.” Church of the Lukumi
Babalu Aye, Inc. v. City of Hialeah, 508 U.S. 520, 546 (1993) (quoting McDaniel v.
Paty, 435 U.S. 618, 628 (1978)); Jackson v. Danberg, 594 F.3d 210, 230 (3d Cir.
2010).
Given the evidence concerning security threats during executions—both
experienced and anticipated—the vetting of execution team members, and the
history of disciplinary problems with ADOC-employed chaplains and religious
volunteers, combined with the inherently emotional nature of executions, the court
finds that the ADOC has a compelling interest in maintaining safety, security, and
solemnity during its executions, including what transpires during the execution and

20

To be clear, the mere claim of a compelling interest by the ADOC does not automatically defeat
Smith’s interests. Holt v. Hobbs, 574 U.S. 355, 363–64 (2015). The court has carefully considered
the evidence and balanced the interests of the parties; it has not simply deferred to the ADOC.
29
App. 52

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 30 of 57

who is allowed inside the execution chamber. 21
iv.

Least Restrictive Means

RLUIPA “makes clear that it is the obligation of the courts to consider
whether exceptions are required under the test set forth by Congress.” Gonzales v.
O Centro Espírita Beneficente Uniõ do Vegetal, 546 U.S. 418, 434 (2006). This test
requires the ADOC “not merely to explain why it denied the exemption but to prove
that denying the exemption is the least restrictive means of furthering a compelling
governmental interest.” Holt v. Hobbs, 574 U.S. 355, 364 (2015). Nothing within
the Supreme Court or Eleventh Circuit's RLUIPA decisions appear to suggest,
however, that prison officials must refute every conceivable option to satisfy the
least restrictive means requirement.
The ADOC submits that its current protocol excluding all individuals,
including spiritual advisors regardless of faith or employer, from the execution
chamber is the least restrictive means of advancing its compelling interest in the

21

The district court in Gutierrez reached the opposite conclusion. There, the district judge noted
that the TDCJ had presented no evidence of security breaches by chaplains while in the execution
chamber and failed to submit any evidence of disruptions caused by spiritual advisors. The
Gutierrez court found that TDCJ’s security concerns were, therefore, too abstract and not
sufficiently ripe. Gutierrez v. Saenz, Case No. 19-cv-185 (S.D. Tex. 2019), Doc. 124, p. 17.
Importantly, though, Texas, like Alabama, has never allowed spiritual advisors inside the
execution chamber. Consequently, neither defendant would conceivably be able to provide
evidence of how free-world spiritual advisors might conduct themselves during an execution.
Further, in the instant case, the ADOC has submitted evidence of security breaches (albeit not
inside the execution chamber) by both religious volunteers and an ADOC-employed chaplain. This
court is satisfied that ADOC has shown that security concerns exist if an inmate’s chosen spiritual
advisor is allowed inside the chamber.
30
App. 53

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 31 of 57

safety, security, and solemnity of executions. As it concerns spiritual advisors, the
ADOC has submitted evidence in the form of an affidavit from its long-serving
chaplain explaining the four levels of classification for individuals authorized to
provide pastoral or spiritual services at Holman. (See Doc. 27-7.) The first and
highest level is the institutional chaplain, an ADOC employee subject to education,
experience, and reference requirements, and who must go through interview
procedures and a background investigation. (Doc. 27-7, p. 3.) Institutional chaplains
participate in numerous training programs, both after they are initially hired and
annually, including those on prison culture and sexual harassment, among others.
(Doc. 27-8, pp. 9-25.) The second level is an assistant chaplain. These individuals
are not ADOC employees, but are nonetheless subject to a full background
investigation and required training. (Doc. 27-7, p. 3.) The third classification level
is for volunteers, also non-ADOC employees. These individuals also must undergo
a background investigation and complete a training program. (Id.)
The final level are spiritual advisors, who are likewise non-ADOC employees
and are subject to background investigations akin to those conducted for visitors at
the facility. (Doc. 27-6, p. 7; Doc. 27-7, pp. 3-4.) These advisors can be anyone the
inmate chooses, even a family member, and do not have to be ordained or educated
in any particular religion. (Doc. 27-8, p. 39.) Spiritual advisors previously
unaffiliated with Holman are treated as visitors on the premises and do not undergo
31
App. 54

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 32 of 57

any training. (Doc. 27-7, p. 4.)
The ADOC contends that its relaxed requirements for spiritual advisors give
death-sentenced inmates the maximum possible freedom in choosing the person they
wish to provide comfort and guidance in the inmate’s final days and hours. The
ADOC argues that allowing a free-world advisor not previously known to the ADOC
inside the execution chamber would require a heightened background investigation
to evaluate the advisor’s “character, ability to follow orders, and connection to the
inmate . . . .” (Doc. 27-6, p. 10.) Holman’s chaplain testified that background
investigations of ADOC employees sometimes take months to complete. (Doc. 278, pp. 6-7.) Consequently, there is no guarantee that an inmate’s chosen advisor
could undergo a more extensive background investigation in time to be present at
the execution. Subjecting spiritual advisors to interviews, training, and heightened
background investigation procedures, or requiring advisors to prove a certain level
of education and experience, has the potential to restrict which individuals could be
approved as spiritual advisors. There is also no guarantee that an inmate’s chosen
spiritual advisor will pass a background check or vetting.22 The ADOC tries “to give
the inmate as much latitude as possible in selecting a spiritual advisor.” (Doc. 27-6,

22

This raises an entirely different set of issues; that is, what happens if the ADOC refuses entry of
a particular spiritual advisor who cannot pass even a minimal background check and vetting. No
evidence is presented by either party of whether Pastor Wiley would or would not pass a
heightened background check and what a background check might reveal.
32
App. 55

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 33 of 57

p. 10.) Additional vetting, which might limit an inmate’s choice of spiritual advisor,
would not further this end.
The ADOC further argues that its less-restrictive standard for spiritual
advisors allows an inmate to make an “eleventh-hour change of religion.” (Doc. 276, p. 10.)

In her affidavit, the ADOC’s Assistant Deputy Commissioner of

Operations notes that inmates are not “held to their initial declaration of faith.” 23
(Id.) Should an inmate decide to change his religious affiliation in the days or weeks
leading up to his execution, this change would make the last-minute screening of his
spiritual advisor unfeasible. The ADOC also notes that its inmates are affiliated at
least “a dozen or more” faiths, making hiring and vetting chaplains of every specific
faith financially and logistically impracticable. (Id.)
Based on the current record, it appears substantially unlikely that the ADOC
could further its compelling security interest while allowing untrained, “free-world”
spiritual advisors to be physically present inside the execution chamber. The
ADOC’s evidence indicates that it has considered alternatives, such as heightened
background investigation procedures, but found those alternatives to be more
23

Because an inmate may choose to alter his religious beliefs ahead of his execution, the inmate
may also be permitted to choose a different spiritual advisor affiliated with his newly adopted faith.
This same policy would also allow an inmate to change his spiritual advisor if, for example, his
spiritual advisor was to become sick or otherwise become unable to attend an execution due to
last-minute issues. Thus, for example, if the inmate’s spiritual advisor suddenly becomes
quarantined due to COVID-19 exposure, the inmate still would be able to designate someone else
in his place who can view the execution from the viewing chamber. That circumstance becomes
very different if the change-out involves someone who is permitted inside the execution chamber.
33
App. 56

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 34 of 57

restrictive of the inmate’s ability to freely choose his spiritual advisor. The court
finds that the ADOC has established that there is no less-restrictive means of
furthering its compelling governmental interests. Its interests in safety, security and
solemnity in executions are so strong that it cannot permit even a slight chance of
interference with an execution inside the chamber.
All told, the court finds—for the purposes of the preliminary injunction—that
Smith has failed to demonstrate a substantial burden on his religious exercise, while
the ADOC has met its burden of showing that it employs the least restrictive means
of furthering its compelling safety, security and solemnity interest. As a result, Smith
is unlikely to succeed on the merits of his RLUIPA claim.
B. First Amendment Claims
In addition to his RLUIPA claim, Smith asserts that the ADOC’s policy and
actions violate both the Establishment Clause and the Free Exercise Clause of the
First Amendment. Because RLUIPA “provide[s] greater protection for religious
exercise than is available under the First Amendment,” see Holt, 135 S. Ct. at 85960, if a prison's regulation passes muster under RLUIPA, it will necessarily satisfy
the requirements of the First Amendment. Allen, 502 F.3d 1281 n. 5 (citing Charles
v. Frank, 101 F. App’x 634, 635 (7th Cir. 2004) (per curiam)). Nonetheless, the
court will address Smith’s First Amendment claims in turn.

34
App. 57

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 35 of 57

1. Establishment Clause
The question Smith presents is whether the ADOC’s amended policy which
prohibits all inmates from having anyone, including a spiritual advisor of his
choosing, inside the execution chamber with him at the moment of execution is
violative of the Establishment Clause. (Doc. 1, pp. 16-18.) In his Emergency
Motion for Preliminary Injunction, Smith contends he has a substantial likelihood of
prevailing on the merits of this claim because the “ADOC’s policy erects a barrier
between prisoners and the exercise of their religious beliefs.” (Doc. 4, p. 19.) The
ADOC asserts the Establishment Clause claim should be dismissed pursuant to Rule
12(b)(6) because Smith has failed to state a claim upon which relief can be granted.
(Doc. 12, p. 32.)
The Establishment Clause of the First Amendment provides, “Congress shall
make no law respecting an establishment of religion.” U.S. Const. amend. I. “This
restriction has been made applicable to states, as well as state-created entities and
their employees, through the Due Process Clause of the Fourteenth Amendment.”
Holloman ex rel. Holloman v. Harland, 370 F.3d 1252, 1284 (11th Cir. 2004) (citing
Cantwell v. Connecticut, 310 U.S. 296, 303 (1940)). “The Establishment Clause
applies not only to state statutes but acts and decisions of individual governmental
actors” as well. Id. (citing Lee v. Weisman, 505 U.S. 577, 587 (1992)).
The Establishment Clause prohibits governmental entities from preferring one
35
App. 58

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 36 of 57

religion over another religion, but also prevents the creation of laws that demonstrate
hostility toward religion. See American Legion v. American Humanist Assoc., ___
U.S. ___, 139 S. Ct. 2067, 2074 (2019); Van Orden v. Perry, 545 U.S. 677, 683-84
(2005); Rosenberger v. Rector and Visitors of Univ. of Va., 515 U.S. 819, 845-46
(1995); Larson v. Valente, 456 U.S. 228, 246 (1982).
The parties agree that the constitutional standard set forth in Lemon v.
Kurtzman, 403 U.S. 602 (1971), applies to Smith’s Establishment Clause claim.
(Doc. 12, p. 33.) To survive an Establishment Clause challenge under the Lemon
test, (1) the government activity in question must have a secular purpose, (2) its
principal or primary effect must be one that neither advances nor inhibits religion,
and (3) it must not foster an excessive entanglement with religion. Lemon, 403 U.S.
at 612-13.24
The ADOC argues the absence of any and all persons, including spiritual
advisors, meets all three prongs of the Lemon test because (1) the amended policy
excluding all outside individuals, including spiritual advisors, family members,
friends, and other ADOC employees, from the execution chamber furthers the policy
of “maintaining security in the chamber and the solemnity of the event”; (2) the

24

This court recognizes the Lemon test is not applicable to certain Establishment Clause
challenges. See American Legion v. American Humanist Assoc.,
U.S. , 139 S. Ct. at 20862089 (a plurality rejected the Lemon test in claims involving religiously expressive monuments,
symbols, and displays); Lamb's Chapel v. Center Moriches Sch. Dist., 508 U.S. 384, 395 n. 7
(1993) (noting that despite heavy criticism of the Lemon test, it has not been overruled).
36
App. 59

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 37 of 57

primary effect is to maintain the safety, security and solemnity of the execution and,
therefore, the amended policy does not advance or inhibit religion; and (3) the policy
disentangles the government from religion by removing all clergy and spiritual
advisors from the chamber. (Doc. 12, p. 33.)
Smith does not dispute that the ADOC’s amended policy generally meets the
first and third prongs of the Lemon test. Instead, he argues that the policy does not
satisfy the second prong. Smith attests that the primary effect of the ADOC’s
prohibition of an inmate’s chosen spiritual advisor in the execution chamber will
inhibit the practice of his religious beliefs. (Doc. 13-1, p. 18.) The ADOC maintains
that the primary effect of the amended policy is to further the safety, security and
solemnity of the execution. (Doc. 12, p. 33.) The effects prong of the Lemon test
“asks whether, irrespective of [the] government's actual purpose, the practice under
review in fact conveys a message of endorsement or disapproval” of religion.
Wallace v. Jaffree, 472 U.S. 38, 56 n. 42 (1985) (quoting Lynch, 465 U.S. at 690
(O'Connor, J., concurring)).
There is no dispute that the ADOC removed its institutional chaplain from the
execution chamber in response to recent litigation concerning the presence of its
chaplain during executions. (See Doc. 12, p. 12.) In Ray v. Commissioner, Alabama
Department of Corrections, 915 F.3d 689 (11th Cir. 2019), Muslim inmate
Domineque Ray requested the presence of his imam inside the chamber to provide
37
App. 60

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 38 of 57

spiritual guidance at the time of his death. He also objected to the presence of the
ADOC-employed Christian chaplain in the execution chamber. The ADOC agreed
to remove the chaplain but refused to grant the request for the presence of Ray’s
imam. On February 6, 2019, the Eleventh Circuit determined that Ray’s challenge
to the ADOC policy of allowing the presence of the ADOC chaplain in the execution
chamber while refusing to allow his free-world imam in the chamber demonstrated
a “powerful Establishment clause claim.” 915 F.3d at 695. Strongly criticizing the
State of Alabama for its actions, the Eleventh Circuit held that the ADOC’s policy
(at that time) “facially further[ed] a denominational preference” Id. at 697.
After concluding that “Alabama appears to have set up ‘precisely the sort of
denominational preference that the Framers of the First Amendment forbade,’” the
Court found Ray had demonstrated a substantial likelihood of success on the merits
of his Establishment claim and granted an emergency motion for a stay. Id. at 69798 (quoting Larson, 456 U.S. at 255).

Due to the last-minute nature of the

application, however, the Supreme Court vacated the Eleventh Circuit’s imposition
of the stay. Dunn v. Ray, ___ U.S. ___, 139 S. Ct. 661 (2019). Ray ultimately was
executed with no spiritual advisor of any sort inside the execution chamber.
The following month, the Supreme Court granted a stay to Texas inmate
Patrick Murphy, a Buddhist who had requested that his chosen spiritual advisor or a

38
App. 61

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 39 of 57

comparable Buddhist advisor be present with him in the execution chamber.25
Murphy v. Collier, ___ U.S. ___, 139 S. Ct. 1475 (2019) (Kavanaugh, J.,
concurring). Murphy challenged Texas’ policy that allowed either the prison’s
Christian or Muslim state-employed chaplain to be present but excluded all other
spiritual advisors. In his concurrence, Justice Kavanaugh stated:
In an equal-treatment case of this kind, the government
ordinarily has its choice of remedy, so long as the remedy
ensures equal treatment going forward. See Stanton v. Stanton,
421 U.S. 7, 17–18 (1975). For this kind of claim, there would be
at least two possible equal-treatment remedies available to the
State going forward: (1) allow all inmates to have a religious
adviser of their religion in the execution room; or (2) allow
inmates to have a religious adviser, including any stateemployed chaplain, only in the viewing room, not the execution
room. A State may choose a remedy in which it would allow
religious advisers only into the viewing room and not the
execution room because there are operational and security issues
associated with an execution by lethal injection. Things can go
wrong and sometimes do go wrong in executions, as they can go
wrong and sometimes do go wrong in medical procedures.
States therefore have a strong interest in tightly controlling
access to an execution room in order to ensure that the execution
occurs without any complications, distractions, or disruptions.
The solution to that concern would be to allow religious advisers
only into the viewing room.
In any event, the choice of remedy going forward is up to the
State. What the State may not do, in my view, is allow Christian
or Muslim inmates but not Buddhist inmates to have a religious
adviser of their religion in the execution room.

25

Murphy filed his request for a religious accommodation with the TDCJ one month in advance
of his execution. Murphy, 139 S. Ct. at 1477.
39
App. 62

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 40 of 57

Murphy v. Collier, 139 S. Ct. at 1475-1476 (Kavanaugh, J., concurring in grant of
application for stay on March 28, 2019).
On April 2, 2019, five days after the Supreme Court granted a stay in Murphy,
Texas changed its policy to exclude all spiritual advisors, including those employed
by the state of Texas, from the chamber; they could, however, view the execution
from the viewing room. Id. at 1476. On May 13, 2019, in a statement concerning
Justice Alito’s dissent, Justice Kavanaugh suggested that “[t]he new policy solves
the equal-treatment constitutional issue” and suggested that “the prompt resolution
of a significant religious equality problem with the State’s execution protocol . . .
should alleviate any future litigation delays or disruptions that otherwise might have
occurred as a result of the State’s prior discriminatory policy.” Id. (Kavanaugh, J.,
statement, joined by Roberts, C.J.).
In April 2019, relying on Justice Kavanaugh’s concurrence in Murphy, the
ADOC likewise amended its execution protocol to remove the required presence of
its institutional chaplain inside the execution chamber. (Doc. 12, p. 12.) Now, no
spiritual advisors, regardless of faith, employer, or security risk, are allowed inside
the chamber. Smith argues that the ADOC’s attempt to cure one constitutional
infirmity “created a new one: it has the primary effect of inhibiting religious
practice.” (Doc. 4, p. 19.) Specifically, he argues the ADOC’s amended policy erects

40
App. 63

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 41 of 57

a barrier between prisoners and the exercise of their religious beliefs, including
Smith’s own. (Id.)
The ADOC maintains that the amended policy meets the second prong of the
Lemon test because the primary effect of the policy is to further the safety, security
and solemnity of an execution. (Doc. 12, p. 33.) The prohibition of spiritual advisors
inside the execution chamber neither advances nor inhibits any particular religion
because, as alleged in the Complaint, a condemned inmate is allowed to visit with
his spiritual advisor of choice just before entering the execution chamber and is free
to pray in the moments before his death. The amended policy allows no one in the
execution chamber at the moment of execution, including family members, friends
and other ADOC employees. Everyone is excluded, except for those who serve on
the execution team.
The facts presented in this case demonstrate that the ADOC’s amended policy
does not have the primary effect of inhibiting religion. A condemned inmate is
permitted to visit and pray with his spiritual advisor before he enters the execution
chamber. The advisor is also allowed to watch the execution from the viewing room
and pray for the inmate during the execution, only a few feet away and separated
only by security glass. Although an inmate and his spiritual advisor are unable to
touch or hold hands, they can see each other just as the inmate can do with any friend
or family member who also attends. Thus, it is clear the primary effect of the
41
App. 64

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 42 of 57

amended policy neither advances nor inhibits religion. See Bown v. Gwinnett Cty.
Sch. Dist., 112 F.3d 1464, 1472 (11th Cir. 1997) (determining that statute requiring
moment of silence in school did not have the primary effect of advancing or
inhibiting religion).
On the face of the Complaint, Smith has failed to allege facts demonstrating
the ADOC’s amended policy prohibiting spiritual advisors in the execution chamber
itself is hostile to religion. Instead, if the amended policy does anything, it removes
an unconstitutional exception to an otherwise religion-neutral policy of general
exclusion. Consequently, the ADOC’s motion to dismiss pursuant to Rule 12(b)(6),
is due to be GRANTED as to the Establishment Clause claim. Moreover, even
assuming Smith pled sufficient facts, this court concludes that Smith is unlikely to
prevail on the merits of his Establishment Clause claim.
2. Free Exercise Clause
Smith asserts the ADOC’s amended policy is also violative of the Free
Exercise Clause. Specifically, Smith states the amended policy constitutes a policy
that is hostile toward religion. (Doc. 1, p. 19.) The ADOC argues that this court
should dismiss the free exercise claim pursuant to Rule 12(b)(6) because Smith has
failed to state a claim upon which relief can be granted. (Doc. 12, p. 32.)
“First Amendment Free Exercise Clause precedent is clear: a plaintiff must
allege a constitutionally impermissible burden on a sincerely held religious belief to
42
App. 65

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 43 of 57

survive a motion to dismiss.” GeorgiaCarry.Org., Inc. v. Ga., 687 F.3d 1244, 1256
(11th Cir. 2012). “This is so because, as a threshold issue—before a court even
considers whether a law is subject to the rational basis test or, alternatively, strict
scrutiny—a court must be able to determine that the protection of the Free Exercise
Clause is triggered.” Id. “To plead a valid free exercise claim, [a plaintiff] must
allege that the government has impermissibly burdened one of his ‘sincerely held
religious beliefs.’” Watts v. Fla. Int'l Univ., 495 F.3d 1289, 1294 (11th Cir. 2007)
(citation omitted). A plaintiff must allege “‘enough factual matter (taken as true) to
suggest’ that his religious belief [is] sincerely held . . . ‘plausible grounds to infer’
that it [is] sincerely held . . . and ‘identify[ ] facts that are suggestive enough to render
[the sincerity of his belief] plausible [ ]’ . . . . That is all that is required at this stage
of the litigation.” Id. at 1296 (alteration in original) (citations omitted). Smith has
sufficiently pled his claim that the amended ADOC policy precludes his sincere
desire to have a spiritual advisor present inside the chamber during his execution.
Thus, the ADOC’s motion to dismiss the free exercise claim pursuant to Rule
12(b)(6) is due to be DENIED.
Because the ADOC also argues the Emergency Motion for Preliminary
Injunction is due to be denied, the court must now determine the likelihood of Smith
prevailing on the merits of his Free Exercise Clause claim.
While prisoners retain First Amendment rights, including the First
43
App. 66

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 44 of 57

Amendment right of free exercise of religion, see Cruz v. Beto, 405 U.S. 319, 322
(1972) (per curiam), prison regulations or policies “alleged to infringe constitutional
rights are judged under a ‘reasonableness’ test less restrictive than that ordinarily
applied to alleged infringements of fundamental constitutional rights.” O'Lone v.
Estate of Shabazz, 482 U.S. 342, 349 (1987) (holding that the Turner v. Safley
standard of review is applicable to claims that an inmate's free exercise rights have
been violated). Courts must give respect and deference to the judgment of prison
administrators in considering First Amendment challenges raised within the confines
of prisons or jails. O'Lone, 482 U.S. at 350.
The Turner standard of review requires the court to uphold prison regulations
if they are “reasonably related to legitimate penological interests.” O'Lone, 482 U.S.
at 350 (determining that Turner v. Safley’s “reasonableness” test is appropriate to
claims of “alleged infringements of fundamental constitutional rights.”). Thus, “[a]
prison regulation, even though it infringes the inmate's constitutional rights, is an
actionable constitutional violation only if the regulation is unreasonable.” Hakim v.
Hicks, 223 F.3d 1244, 1247 (11th Cir. 2000), cert. denied, 532 U.S. 932 (2001)
(holding that policy which precluded use of a “dual-name” on inmate identification
card violated inmate's right to the free exercise of religion by denying him his
Muslim identity and was unreasonable under Turner).
The Turner standard employs four factors to determine the reasonableness of
44
App. 67

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 45 of 57

a challenged prison regulation, rule, or policy. “First, there must be a ‘valid, rational
connection’ between the prison regulation and the legitimate governmental interest
put forward to justify it.” Turner, 482 U.S. at 89 (citing Block v. Rutherford, 468
U.S. 576, 586 (1984)). The remaining three factors consider: “(2) whether there are
alternative means of exercising the asserted constitutional right that remain open to
the inmates; (3) whether and the extent to which accommodation of the asserted right
will have an impact on prison staff, inmates, and the allocation of prison resources
generally; and (4) whether the regulation represents an exaggerated response to
prison concerns.” Hicks, 223 F.3d at 1247-48 (quoted in Johnson v. Brown, 581 Fed.
Appx. 777, 780 (11th Cir. 2014)).
a. The Rational Connection to Security
The ADOC maintains there is a rational connection between the policy
prohibiting non-employees, such as free-world spiritual advisors chosen by the
inmate, from the execution chamber and the ADOC’s need to provide a safe, secure,
solemn, and respectful execution. (Doc. 12, pp. 39-40.) Smith argues, however, that
the policy evinces a hostility toward religion and is therefore not neutral. (Doc. 131, p. 23.)
If the “asserted goal is so remote” from the policy such that it appears
“arbitrary or irrational” or if the “governmental objective” is not a “legitimate and
neutral one,” the regulation or policy “cannot be sustained” as constitutional. Turner,
45
App. 68

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 46 of 57

482 U.S. at 89-90. Security is a compelling governmental objective. Cutter v.
Wilkinson, 544 U.S. 709, 725 n. 13 (2005). The court also finds that maintaining
solemnity of the execution proceeding is a compelling interest.
As previously discussed, the ADOC has presented sufficient evidence
demonstrating the heightened security risks that exist during an execution and the
rational reasons for allowing only necessary medical personnel and members of the
execution team inside the chamber. The ADOC has submitted evidence of outbursts
from free-world visitors and at least one condemned inmate during an execution, as
well as evidence of inmates making threats and staging protests in response to
executions. And these are just documented disturbances that have occurred during
executions over the previous ten years. Common sense dictates that there are a
multitude of other things that could go wrong from a safety and security standpoint,
especially in an effort to stop an execution. Distractions of this sort are disruptive
and pose a substantial security risk to personnel performing the execution and
undermine efforts to conduct an execution that is serious, dignified, and respectful,
thereby preserving the solemnity of the proceeding. As a result, the court finds that
ADOC has provided a logical foundation for its amended policy banning all persons
of the inmate’s choosing, including spiritual advisors, from the execution chamber.
Consequently, the first factor weighs in the ADOC’s favor as security problems
could conceivably arise when a free-world spiritual advisor of the inmate’s choosing
46
App. 69

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 47 of 57

is present during the execution process.
b. Alternative Means
The ADOC asserts that Smith has alternative means of exercising his religious
freedom because Smith is allowed religious reading materials, visits with his chosen
spiritual advisor, and may otherwise practice his faith during the week leading up to
his execution. Smith may also have an in-person contact visit with his spiritual
advisor prior to entering the execution chamber where the two men may pray, study
scripture, hold hands, and otherwise comfort each other. Smith and his pastor are
also able to see each other through the viewing room window during Smith’s
execution, and both Smith and his spiritual advisor may pray throughout the
execution process. Because Smith has alternative means of practicing his faith, the
court finds that this factor weighs heavily in favor of the ADOC.
c. Accommodation of the Requested Right
The ADOC also asserts that accommodating Smith’s request would create an
unnecessary safety and security risk during the execution. The ADOC argues that
free-world spiritual advisors of an inmate’s choosing are neither investigated nor
trained to the same degree as ADOC employees, nor are they vetted in the way
members of the execution team are vetted. The ADOC maintains it cannot exercise
the same control over free-world spiritual advisors as it can with its own chosen
employees. The ADOC further argues that, even if a spiritual advisor were to sign a
47
App. 70

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 48 of 57

form agreeing to follow orders during an execution, there is no guarantee that a
disturbance would not occur. (Doc. 12, p. 40.) The court recognizes that Smith’s
pastor has visited the prison on several occasions without incident. A routine visit,
however, is different from allowing someone into the execution chamber while an
inmate is being put to death. An execution involves heightened security during a
highly emotional event and Smith’s spiritual advisor is not beholden to the ADOC
in any form. Therefore, although the court affords some weight to Smith as to this
factor, the balance ultimately weighs more heavily in favor of the ADOC.
d. Ready Alternatives
As to the final factor, the ADOC argues there are no ready alternatives to
Smith’s request for his spiritual advisor because the amended policy does not permit
anyone inside the execution chamber except for members of the execution team.
The ADOC notes that its policy is a reasonable regulation in the interest of safety,
security, solemnity, and fairness to inmates of all faiths or no faith at all. The court
agrees.
After weighing these four factors and recognizing that the ADOC’s policy
infringes on Smith's exercise of religion to some degree, the court concludes that
Smith is unlikely to demonstrate that the ADOC’s amended policy is
“unreasonable.” The ADOC has a legitimate governmental interest in tightly
controlling access to its execution chamber during an execution, and the challenged
48
App. 71

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 49 of 57

policy has a rational connection to that interest. Smith's rights are necessarily limited
by virtue of his incarceration, but he has not shown that he is unable to generally
exercise his religious faith. This court therefore concludes that Smith is unlikely to
prevail on the merits of his Free Exercise claim.
C. The ARFA Claim
Smith also asserts the ADOC’s policy violates the Alabama Religious
Freedom Amendment (“ARFA”), Ala. Const. Art. I, § 3.01(V). Specifically, he
maintains that excluding his spiritual advisor from the execution chamber is a burden
on his religion and is not the least restrictive means of furthering a compelling
governmental interest. (Doc. 1, pp. 15-16.) He also asserts that, because “[t]he
ARFA analysis is essentially the same as that under RLUIPA – except a plaintiff is
required to show only any burden on religion, rather than a ‘substantial burden,’” he
is substantially likely to prevail on his ARFA claim as well. (Doc. 4, pp. 17-18
(emphasis added).)
The ADOC asks this court to decline to exercise supplemental jurisdiction as
to the ARFA claim. Alternatively, the ADOC contends this court should dismiss
Smith’s ARFA claim pursuant to Rule 12(b)(6) and that the motion for a preliminary
injunction is due to be denied as well.
For a federal court “[t]o exercise [supplemental] jurisdiction over state law
claims not otherwise cognizable in federal court, ‘the court must have jurisdiction
49
App. 72

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 50 of 57

over a substantial federal claim and the federal and state claims must derive from a
‘common nucleus of operative fact.’’” L.A. Draper & Son v. Wheelabrator Frye,
Inc., 735 F.2d 414, 427 (11th Cir. 1984) (citation omitted). The exercise of
supplemental jurisdiction is discretionary. United Mine Workers of Am. v. Gibbs,
383 U.S. 715, 726 (1966).
Citing Thai Meditation Association of Alabama, Inc. v. City of Mobile, 980
F.3d 821 (11th Cir. 2020), the ADOC contends the exercise of supplemental
jurisdiction is not appropriate because the Eleventh Circuit recently observed that
there is limited Alabama case law interpreting ARFA and noting that its own
interpretation of ARFA was its “best Erie guess.” 980 F.3d at 837, 840. Although
this court recognizes there are few Alabama court decisions interpreting or applying
ARFA, it cannot ignore the Eleventh Circuit’s holding and sound interpretation of
the language of ARFA. Therefore, this court will exercise supplemental jurisdiction.
ARFA was ratified in 1998 and is codified at § 3.01 of the Alabama
Constitution. ARFA's operative provision provides:
(a) Government shall not burden a person's freedom of religion
even if the burden results from a rule of general applicability,
except as provided in subsection (b).
(b) Government may burden a person's freedom of religion only
if it demonstrates that application of the burden to the person:
(1) is in furtherance of a compelling governmental interest;
and
50
App. 73

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 51 of 57

(2) is the least restrictive means of furthering that
compelling interest.
Ala. Const. Art. I, § 3.01(V).
Because the language of this state constitutional provision essentially tracks
that of RLUIPA, the court, at least in part, will interpret and apply this provision in
light of case law decided under RLUIPA. See Presley v. Scott, No. 4:13-cv-02067,
2014 WL 7146837, at *24 (N.D. Ala. Dec. 15, 2014).
The same claims and issues raised in Smith’s federal RLUIPA claim appear
with respect to this state-law claim. Construing the facts in the Complaint in favor
of Smith, and assuming the truthfulness of Smith’s statements that he is a practicing
Christian and that his request for his spiritual advisor to be with him in the execution
chamber is an important aspect of his faith, Smith has established a prima facie
ARFA violation. Smith has sufficiently alleged both that he wishes to engage in a
religious exercise and that the ADOC’s policy of disallowing all individuals,
including spiritual advisors, from inside the execution chamber burdens his religion
by preventing him from praying with and receiving comfort from his pastor in his
final moments of life. Because Smith’s allegations plead a claim that is plausible on
its face, the ADOC’s motion to dismiss is due to be DENIED as to Smith’s ARFA
claim. The court now turns to Smith’s request for preliminary injunctive relief.

1. The Burden on Religious Exercise
51
App. 74

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 52 of 57

ARFA's purpose “is to guarantee that the freedom of religion is not burdened
by state and local law; and to provide a claim or defense to persons whose religious
freedom is burdened by government.” Ala. Const., § 3.01, § III. Smith alleges that
the ADOC’s refusal to allow his spiritual advisor in the execution chamber does just
that.
In Thai Meditation Association of Alabama, Inc., the Eleventh Circuit
considered whether “the Alabama Constitution [is] markedly more protective of
religious exercise than federal law in that it requires a plaintiff to show, as
prerequisite to the application of strict scrutiny, only that government action
'burdened' – rather than 'substantially burdened' – his religious exercise[.]” 980 F.3d
at 837. The court determined that the use of the term “burden” in place of the more
familiar “substantial burden” language found within RLUIPA was intentional. 980
F.3d at 839-40. Consequently, the court held “what ARFA says is that any burden—
even an incidental or insubstantial one—suffices to trigger strict scrutiny.” Id. at 840.
As previously discussed, Smith believes his spiritual advisor’s presence will
provide spiritual comfort during his execution and ease his transition from life to
death. The ADOC’s policy forbids the spiritual advisor from entering the execution
chamber. Thus, under the low threshold burden applicable under ARFA, the court
finds the ADOC policy burdens Smith’s religion by preventing him from engaging
in an exercise important to his faith.
52
App. 75

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 53 of 57

2. The Traditional Strict-Scrutiny Standard
The ADOC may only burden Smith’s freedom of religion, however, if it
satisfies the traditional strict scrutiny standard. See Thai Meditation Association of
Alabama, Inc., 980 F.3d at 839 (citing Ala. Const. Art. I, § 3.01(V)(a)-(b)). To
satisfy strict scrutiny, government action must advance a compelling interest and “be
narrowly tailored in pursuit of that interest.” See Espinoza v. Montana Department
of Revenue, 140 S. Ct. 2246, 2260 (2020).
As previously determined in this court’s analysis of Smith’s federal RLUIPA
claim, the ADOC has a compelling interest in maintaining safety, security, and
solemnity during an execution, particularly in light of evidence concerning security
threats during executions, the vetting of execution team members, and the history of
disciplinary problems with ADOC-employed chaplains and religious volunteers.
The ADOC has also met its burden of showing that its policy is narrowly tailored in
pursuit of furthering its compelling security interest. As a result, the court finds that
Smith is unlikely to succeed on the merits of his ARFA claim.
D. Remaining Preliminary Injunction Factors
In addition to evaluating Smith’s likelihood of success on the merits of his
statutory and constitutional claims, the court must also determine whether
irreparable injury will be suffered unless the injunction issues, whether the
threatened injury to the movant outweighs whatever damage the proposed injunction
53
App. 76

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 54 of 57

may cause the opposing party, and if issued, whether the injunction would not be
adverse to the public interest. See McDonald's Corp., 147 F.3d at 1306 (citing All
Care Nursing Serv., Inc. v. Bethesda Memorial Hosp., Inc., 887 F.2d 1535, 1537
(11th Cir. 1989)).
Smith argues that he will suffer irreparable injury if an injunction is not
granted; specifically, the loss of his First Amendment freedoms. (Doc. 3, p. 21.)
Smith alleges that depriving him of the benefit of sharing his final moments with his
chosen spiritual advisor will “result in the execution of a human being in an
unconstitutional manner.” (Id.) Further, Smith argues that any harm to the ADOC
“amounts to the minor inconvenience of the delayed execution of a prisoner who has
been on death row for more than two decades . . . .” (Id., p. 22.) Finally, Smith
contends that the general public interest is served by granting relief in this case. He
argues that neither the ADOC nor the public has an interest in conducting executions
in a manner that violates the constitution. (Id., pp. 22-23.)
For its part, the ADOC argues that Smith has failed to establish his burden on
the remaining preliminary injunction factors. Particularly, the ADOC notes that
Smith will not suffer irreparable harm in the absence of an injunction because Smith
is not being prevented from practicing his faith. (Doc. 12, p. 39.) The ADOC again
points to its protocol that allows Smith to visit with his chosen advisor in the days,
hours, and minutes leading up to his execution, during which time Smith can receive
54
App. 77

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 55 of 57

comfort and spiritual guidance. (Id.) The ADOC also notes Smith’s delay in
requesting relief. (Id., pp. 42-44.)
After considering the evidence submitted by both parties, the court finds that
a preliminary injunction should not issue in this case. The court already has
concluded that Smith is unlikely to succeed on the merits of his RLUIPA, First
Amendment, and ARFA claims, and Smith has, in fact, been unsuccessful on the
merits of his Establishment Clause claim as that claim has been dismissed. The court
agrees with Smith that carrying out executions in an unconstitutional manner would
result in irreparable injury and fails to serve the public interest. But that is not the
case here.
As the court already has noted, Smith is not being deprived of the opportunity
to practice his Christian faith. The ADOC’s policy of requiring his spiritual advisor
to view Smith’s execution from an adjacent room, mere feet away and separated
only by a glass barrier, does not substantially burden Smith’s religious exercise.
Because he is not being coerced to violate his religious beliefs, he will not suffer
irreparable injury, and the public’s interests will not be harmed. Instead, the court
finds that the state of Alabama’s strong interest in enforcing its criminal judgments
and the public interest in seeing capital sentences completed both weigh heavily in
favor of denying a preliminary injunction in this case. See In re Blodgett, 502 U.S.
236, 239 (1992) (per curiam).
55
App. 78

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 56 of 57

What’s more—as Smith has himself noted—Smith has been on death row for
two decades and was on death row when the ADOC amended its execution protocol
almost two years ago. In fact, Smith is represented by the same legal counsel who
filed an identical lawsuit on behalf of another death-sentenced inmate on April 4,
2019. 26 Smith could have requested relief much earlier than weeks prior to his
execution. He could have brought this action in April 2019 immediately after the
change in protocol. Or contemporaneously with the claims in his initial § 1983 suit
filed before another judge in this District. Although not fatal, “a delay in seeking a
preliminary injunction of even only a few months . . . militates against a finding of
irreparable harm.” See Wreal, 840 F.3d at 1248.
Because Smith is unlikely to succeed on the merits of any of his four claims,
and because he has failed to carry the burden of persuasion on the remaining factors,
the court finds that the “extraordinary and drastic remedy” of a preliminary
injunction is not warranted here. McDonald’s Corp., 147 F.3d at 1306. Smith’s
motion is due to be DENIED.
V. CONCLUSION
Based upon the foregoing, it is ORDERED as follows:
1. The ADOC’s Motion to Dismiss (Doc. 12) is GRANTED as to Smith’s
Establishment Clause claim;
26

See Burton v. Dunn, Case No. 19-cv-242-RAH (M.D. Ala.)
56
App. 79

Case 2:20-cv-01026-RAH Document 32 Filed 02/02/21 Page 57 of 57

2. The ADOC’s Motion to Dismiss (Doc. 12) is DENIED as to Smith’s
RLUIPA, Free Exercise, and ARFA claims;
3. Smith’s Emergency Motion for Preliminary Injunction (Doc. 3) is DENIED;
and
4. All claims related to the Sunday services issue are DISMISSED as moot.
DONE and ORDERED this the 2nd day of February, 2021.
/s/ R. Austin Huffaker, Jr.
R. AUSTIN HUFFAKER, JR.
UNITED STATES DISTRICT JUDGE

57
App. 80

